<html>
<title> - AMERICANS AT RISK: MANIPULATION AND DECEPTION IN THE DIGITAL AGE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      AMERICANS AT RISK: MANIPULATION AND 
                           DECEPTION IN THE DIGITAL AGE

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CONSUMER PROTECTION AND COMMERCE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 8, 2020

                               __________

                           Serial No. 116-86
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                              __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-716 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------                       
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
            Subcommittee on Consumer Protection and Commerce

                        JAN SCHAKOWSKY, Illinois
                                Chairwoman
KATHY CASTOR, Florida                CATHY McMORRIS RODGERS, Washington
MARC A. VEASEY, Texas                  Ranking Member
ROBIN L. KELLY, Illinois             FRED UPTON, Michigan
TOM O'HALLERAN, Arizona              MICHAEL C. BURGESS, Texas
BEN RAY LUJAN, New Mexico            ROBERT E. LATTA, Ohio
TONY CARDENAS, California, Vice      BRETT GUTHRIE, Kentucky
    Chair                            LARRY BUCSHON, Indiana
LISA BLUNT ROCHESTER, Delaware       RICHARD HUDSON, North Carolina
DARREN SOTO, Florida                 EARL L. ``BUDDY'' CARTER, Georgia
BOBBY L. RUSH, Illinois              GREG GIANFORTE, Montana
DORIS O. MATSUI, California          GREG WALDEN, Oregon (ex officio)
JERRY McNERNEY, California
DEBBIE DINGELL, Michigan
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Jan Schakowsky, a Representative in Congress from the State 
  of Illinois, opening statement.................................     2
    Prepared statement...........................................     2
Hon. Cathy McMorris Rodgers, a Representative in Congress from 
  the State of Washington, opening statement.....................     3
    Prepared statement...........................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     7
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     8
    Prepared statement...........................................    10

                               Witnesses

Monika Bickert, Vice President of Global Policy Management, 
  Facebook.......................................................    12
    Prepared statement...........................................    14
    Answers to submitted questions...............................   108
Joan Donovan, Ph.D., Director, Technology and Social Change 
  Project, Shorenstein Center on Media, Politics and Public 
  Policy, Harvard Kennedy School.................................    19
    Prepared statement...........................................    21
    Answers to submitted questions \1\...........................   124
Justin (Gus) Hurwitz, Director of Law and Economics Programs, 
  International Center for Law and Economics.....................    26
    Prepared statement...........................................    29
    Answers to submitted questions...............................   129
Tristan Harris, President and Cofounder, Center for Humane 
  Technology.....................................................    50
    Prepared statement...........................................    52
    Answers to submitted questions...............................   137

                           Submitted Material

Letter of January 8, 2020, from Kerri Wood Einertson, National 
  Director, Government Affairs and Public Policy, SAG-AFTRA, to 
  Ms. Shakowsky and Mrs. Rodgers, submitted by Ms. Schakowsky....   104
Letter of January 8, 2020, from Jeff Westling, Technology and 
  Innovation Policy Fellow, R Street Institute, to Ms. Shakowsky 
  and Mrs. Rodgers, submitted by Ms. Schakowsky..................   106
Report of June 2019, ``Are Deep Fakes a Shallow Concern? A 
  Critical Analysis of the Likely Societal Reactions to Deep 
  Fakes,'' submitted by Ms. Schakowsky \2\
Report, ``Facebook's Black Market in Antiquities,'' by Amr Al-Azm 
  and Katie A. Paul, submitted by Ms. Schakowsky \3\

----------

\1\ Dr. Donovan did not answer submitted questions for the record by 
the time of publication.
\2\ The report has been retained in committee files and also is 
available at https://docs.house.gov/meetings/IF/IF17/20200108/110351/
HHRG-116-IF17-20200108-SD005.pdf.
\3\ The report has been retained in committee files and also is 
available at https://docs.house.gov/meetings/IF/IF17/20200108/110351/
HHRG-116-IF17-20200108-SD006.pdf.

 
    AMERICANS AT RISK: MANIPULATION AND DECEPTION IN THE DIGITAL AGE

                              ----------                              


                       WEDNESDAY, JANUARY 8, 2020

                  House of Representatives,
  Subcommittee on Consumer Protection and Commerce,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:32 a.m., in 
the John D. Dingell Room 2123, Rayburn House Office Building, 
Hon. Jan Schakowsky (chairwoman of the subcommittee) presiding.
    Members present: Representatives Schakowsky, Castor, 
Veasey, Kelly, O'Halleran, Lujan, Cardenas, Blunt Rochester, 
Soto, Matsui, McNerney, Dingell, Pallone (ex officio), Rodgers 
(subcommittee ranking member), Burgess, Latta, Guthrie, 
Bucshon, Hudson, Carter, and Walden (ex officio).
    Also present: Representative Clarke.
    Staff present: Jeffrey C. Carroll, Staff Director; Evan 
Gilbert, Deputy Press Secretary; Lisa Goldman, Senior Counsel; 
Waverly Gordon, Deputy Chief Counsel; Tiffany Guarascio, Deputy 
Staff Director; Alex Hoehn-Saric, Chief Counsel, Communications 
and Consumer Protection; Zach Kahan, Outreach and Member 
Service Coordinator; Joe Orlando, Executive Assistant; Alivia 
Roberts, Press Assistant; Chloe Rodriguez, Policy Analyst; 
Sydney Terry, Policy Coordinator; Rebecca Tomilchik, Staff 
Assistant; Anna Yu Professional Staff Member; Mike Bloomquist, 
Minority Staff Director; S.K. Bowen, Minority Press Assistant; 
William Clutterbuck, Minority Staff Assistant; Jordan Davis, 
Minority Senior Advisor; Tyler Greenberg, Minority Staff 
Assistant; Peter Kielty, Minority General Counsel; Ryan Long, 
Minority Deputy Staff Director; Mary Martin, Minority Chief 
Counsel, Energy, and Environment and Climate Change; Brandon 
Mooney, Minority Deputy Chief Counsel, Energy; Brannon Rains, 
Minority Legislative Clerk; Zack Roday, Minority Director of 
Communications; and Peter Spencer, Minority Senior Professional 
Staff Member, Environment and Climate Change.
    Ms. Schakowsky. Good morning, everyone. The Subcommittee on 
Consumer Protection and Commerce will now come to order. We 
will begin with Member statements, and I will begin by 
recognizing myself for 5 minutes.

 OPENING STATEMENT OF HON. JAN SCHAKOWSKY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Good morning, and thank you for joining us here today. 
Given what is going on in the world, it is really impressive to 
see the turnout that is here today, and I welcome everyone.
    In the two-plus decades since the creation of the internet, 
we have seen life for Americans and their families transformed 
in many positive ways. The internet provides new opportunities 
for commerce, education, information, and connecting people.
    However, along with these many new opportunities, we have 
seen new challenges as well. Bad actors are stocking the online 
marketplace, using deceptive techniques to influence consumers, 
deceptive designs to fool them into giving away personal 
information, stealing their money, and engaging in other unfair 
practices.
    The Federal Trade Commission works to protect Americans 
from many unfair and deceptive practices, but a lack of 
resources, authority, and even a lack of will has left many 
American consumers feeling helpless in this digital world. 
Adding to that feeling of helplessness, new technologies are 
increasing the scope and scale of the problem. Deepfakes, 
manipulation of video, dark patterns, bots, and other 
technologies are hurting us in direct and indirect ways.
    Congress has, unfortunately, taken a laissez faire approach 
to regulation of unfair and deceptive practices online over the 
past decade, and platforms have let them flourish. The result 
is Big Tech failed to respond to the grave threats posed by 
deepfakes, as evidenced by Facebook scrambling to announce a 
new policy that strikes me as wholly inadequate--we will talk 
about that later--since it would have done nothing to prevent 
the video of Speaker Pelosi that amassed millions of views and 
prompted no action by the online platform. Hopefully, our 
discussion today can change my mind about that.
    Underlying all of this is Section 230 of the Communications 
Decency Act, which provides online platform links like Facebook 
a legal liability shield for third-party content. Many have 
argued that this liability shield results in online platforms 
not adequately policing their platforms, including online 
piracy and extremist content.
    Thus, here we are, with Big Tech wholly unprepared to 
tackle the challenges we face today. A top-line concern for 
this subcommittee must be to protect consumers, regardless of 
whether they are online or not. For too long, Big Tech has 
argued that e-commerce and digital platforms deserve special 
treatment and a light regulatory touch.
    We are finding out that consumers can be harmed as easily 
online as in the physical world, and in some cases that online 
dangers are greater. It is incumbent on us in this subcommittee 
to make clear that the protections that apply to in-person 
commerce also apply to virtual space.
    [The prepared statement of Ms. Schakowsky follows:]

               Prepared Statement of Hon. Jan Schakowsky

    Good morning and thank you for joining us here today. In 
the two plus decades since the creation of the internet, we 
have seen life for Americans and their families transformed in 
many positive ways. The internet provides new opportunities for 
commerce, education, information, and connecting people.
    However, along with these many new opportunities, we have 
seen new challenges. Bad actors are stalking the online 
marketplace using deceptive techniques to influence consumers, 
deceptive designs to fool them into giving away personal 
information, stealing their money, and engaging in other unfair 
practices.
    The Federal Trade Commission works to protect Americans 
from many unfair and deceptive practices, but a lack of 
resources, authority, and even a lack of will has left many 
American consumers feeling helpless in the digital world.
    Adding to that feeling of helplessness, new technologies 
are increasing the scope and scale of the problem. Deepfakes, 
manipulated video, dark patterns, bots, and other technologies 
are hurting us in direct and indirect ways.
    Congress has unfortunately taken a laissez faire approach 
to regulating unfair and deceptive practices online over the 
past decade and platforms have let them flourish.
    The result is big tech failed to respond to the grave 
threat posed by deep-fakes, as evidenced by Facebook scrambling 
to announce a new policy that strikes me as wholly inadequate, 
since it would have done nothing to prevent the altered video 
of Speaker Pelosi that amassed millions of views and prompted 
no action by the online platform. Hopefully our discussion 
today can change my mind.
    Underlying all of this is Section 230 of the Communications 
Decency Act, which provided online platforms like Facebook a 
legal liability shield for 3rd party content. Many have argued 
that this liability shield resulted in online platforms not 
adequately policing their platforms, including online piracy 
and extremist content. Thus, here we are, with Big Tech wholly 
unprepared to tackle the challenges we face today.
    A topline concern for this subcommittee must be to protect 
consumers regardless of whether they are online or not. For too 
long, Big Tech has argued that e-commerce and digital platforms 
deserved special treatment and a light regulatory touch. We are 
finding out that consumers can be harmed as easily online as in 
the physical world. And in some cases, the online dangers are 
greater. It's incumbent on this subcommittee to make clear that 
protections that apply to in-person commerce also apply in the 
virtual space. I thank the witnesses for their testimony, and I 
recognize Ranking Member Rodgers for 5 minutes.

    Ms. Schakowsky. I thank the witnesses for their testimony 
today, and I recognize Ranking Member Rodgers for 5 minutes.

      OPENING STATEMENT OF HON. CATHY McMORRIS RODGERS, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON

    Mrs. Rodgers. Thank you. Thank you, Chair Schakowsky. Happy 
New Year, everyone. Welcome to our witnesses. I appreciate the 
chair leading this effort today to highlight online deception.
    I do want to note that last Congress, Chairman Walden also 
held several hearings on platform responsibility. 
Disinformation is not a new problem. It was also an issue 130 
years ago when Joseph Pulitzer and the New York World and 
William Randolph Hearst and The New York Journal led the age 
of, quote, ``yellow journalism.'' Just like clickbait on online 
platforms today, fake and sensational headlines sold newspapers 
and boosted advertising revenue. With far more limited sources 
of information available in the 1890s, the American people lost 
trust in the media. To rebuild trust, newspapers had to clean 
up their act. Now the Pulitzer is associated with something 
very different.
    I believe we are at a similar inflection point today. We 
are losing faith in sources we can trust online. To rebuild it, 
this subcommittee, our witness panel and members of the media 
are putting the spotlight on abuses and deception.
    Our committee's past leadership and constructive debates 
have already led to efforts by platforms to take action. Just 
this week, Facebook announced a new policy to combat deepfakes, 
in part, by utilizing artificial intelligence. I appreciate Ms. 
Bickert for being here to discuss this in greater detail. 
Deepfakes and disinformation can be handled with innovation and 
empowering people with more information.
    On the platforms they choose and trust, it makes far more 
productive outcomes when people can make the best decisions for 
themselves, rather than relying on the government to make 
decisions for them. That is why we should be focusing on 
innovation for major breakthroughs, not more regulations or 
government mandates.
    As we discuss ways to combat manipulation online, we must 
ensure that America will remain the global leader in AI 
development. There is no better place in the world to raise 
people's standard of living and make sure that this technology 
is used responsibly.
    Software is already available to face swap, lip sync, and 
create facial reenactment to fabricate content. As frightening 
as it is, we can also be using AI to go after the bad actors 
and fight fire with fire. We cannot afford to shy away from it, 
because who would you rather lead the world in machine learning 
technology: America or China? China is sharing its AI 
surveillance technology with other authoritarian governments, 
like Venezuela. It is also using its technology to control and 
suppress ethnic minorities, including the Uighurs in Chinese 
concentration camps.
    The New York Times has reported just last month that China 
is collecting DNA samples and could be using this data to 
create images of faces. Could China be building a tool to 
further track and crack down on minorities and political 
dissidents? Imagine the propaganda and lies it could develop 
with this technology behind the Great Chinese Firewall, where 
there is no free speech or an independent press to hold the 
Communist Party accountable.
    That is why America must lead the world in AI development. 
By upholding our American values, we can use this as a force 
for good and save people's lives. For example, AI technology 
and deep learning algorithms can help us detect cancers earlier 
and more quickly. Clinical trials are already underway and 
making major breakthroughs to diagnose cancers.
    The continued leadership of our innovators is crucial to 
make sure that we have the tools to combat online deception. To 
win the future in a global economy, America should be writing 
the rules for this technology so that real people, not an 
authoritarian state like China, are empowered.
    I am also glad that we are putting a spotlight on dark 
patterns. Deceptive laws, fake reviews, and bots are the latest 
version of robocall scams. I am pleased that the FTC has used 
its Section 5 authority to target this fraud and protect 
people. We should get their input as to how we discuss how to 
handle dark patterns.
    We also must be careful where we legislate so that we don't 
harm the practices that people enjoy. A heavy-handed regulation 
will make it impossible for online retailers to provide 
discounts. This would especially hurt lower- and middle-income 
families. In a digital marketplace, services people enjoy 
should not get swallowed up by strict definition of a dark 
pattern. How we make these distinctions is important, so I look 
forward to today's discussion.
    I want to thank the panel, and I yield back.
    [The prepared statement of Mrs. Rodgers follows:]

           Prepared Statement of Hon. Cathy McMorris Rodgers

    Thank you, Chair Schakowsky and welcome to our witnesses.
    I appreciate your work to highlight online deception.
    Last Congress, Chairman Walden led several hearings on 
platform responsibility, before it became the popular cause it 
is today.
    Disinformation is not a new problem.
    It was also an issue 130 years ago when Joseph Pulitzer and 
the New York World and William Randolph Hearst and the New York 
Journal led the age of quote ``yellow journalism.''
    Just like ``clickbait'' on online platforms today, fake and 
sensational headlines sold newspapers and boosted advertising 
revenue.
    With far more limited sources of information available in 
the 1890s, the American public lost trust in the media.
    To rebuild trust, newspapers had to clean up their act.
    Now the name Pulitzer is associated with something very 
different.
    I believe we are at a similar inflection point today.
    We are losing faith in sources we can trust online.
    To rebuild it.this subcommittee, our witness panel, and 
members of the media are putting the spotlight on abuses and 
deception.
    Our committee's past leadership and constructive debates 
have already led to efforts by platforms to take action.
    Just this week Facebook announced a new policy to combat 
deepfakes, in part by utilizing artificial intelligence.
    I appreciate Ms. Bickert for coming here to discuss this in 
greater detail.
    ``Deepfakes'' and disinformation can be handled with 
innovation and empowering people with MORE information.
    On the platforms they choose and trust, it's a far more 
productive outcome when people can make the best decisions for 
themselves rather than relying on the government to make 
decisions for them.
    That's why we should be focusing on innovation for major 
breakthroughs. Not more regulations or government mandates.
    As we discuss ways to combat manipulation online, we must 
ensure America will remain the global leader in AI development.
    There's no better place in the world to raise people's 
standard of living and make sure this technology is used 
responsibly.
    Software is already available to face swap, lip sync, and 
create facial reenactment to fabricate content.
    As frightening as this is, we can also be using AI to go 
after bad actors and fight fire with fire.
    We cannot afford to shy away from it because who would you 
rather lead the world in machine learning technology?
    America or China?
    China is sharing its AI-surveillance technology with other 
authoritarian governments like in Venezuela
    It's also using this technology to control and suppress 
ethnic minorities, including the Uighurs in Chinese 
concentration camps.
    The New York Times reported just last month that China is 
collecting DNA samples of Uighurs and could be using this data 
to create images of their faces.
    Could China be building a tool to further track and crack 
down on minorities and political dissidents?
    Imagine the propaganda and lies they could develop with 
this technology behind the Great Chinese Firewall, where 
there's no free speech or an independent press to hold the 
Communist Party accountable.
    This is why America must lead the world in AI development.
    By upholding our American values, we can use this as a 
force for good and save people's lives.
    For example, AI technology and deep-learning algorithms can 
help us detect cancers earlier and more quickly.
    Clinical trials are already making major breakthroughs to 
diagnose cancers.
    The continued leadership of our innovators is crucial to 
make sure we have tools to combat online deception too.
    I applaud the Trump administration for their forward-
thinking leadership in setting a light-touch framework for 
encouraging continued, responsible American innovation in AI.
    To win the future in a global economy, America should be 
writing the rules for this technology so real people--not an 
authoritarian state like China--are empowered.
    I'm also glad we're putting a spotlight on ``dark 
patterns.''
    Deceptive ads, fake reviews, and bots are the latest 
version of robocall scams.
    I'm pleased that the FTC has used its Section 5 authority 
to target this fraud and protect people.
    We should get their input as we discuss how to handle dark 
patterns.
    We must be careful where we legislate so we don't harm 
practices that people enjoy.
    A heavy-handed regulation will make it impossible for 
online retailers to provide discounts.
    This would especially hurt lower- and middle-income 
families.
    In the digital marketplace, services people enjoy should 
not get swallowed up by a strict definition of a ``dark 
pattern''.
    How we make these distinctions is important.
    I'm looking forward to today's discussion. Thank you again 
to our panel. Thank you, and I yield back.

    Ms. Schakowsky. The gentlelady yields back.
    And the Chair now recognizes Mr. Pallone, chair of the full 
committee, for 5 minutes for his opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, Jr., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chair.
    Americans increasingly rely on the internet for fundamental 
aspects of their daily lives. Consumers shop online for 
products ranging from groceries to refrigerators. They use the 
internet to telecommute or to check the weather and traffic 
before leaving for the office, and they use social media 
networks to connect with family and friends, and as a major 
source of news and information.
    When consumers go online, they understandably assume that 
the reviews of the products that they buy are real, that the 
people on the social networks are human, and that the news and 
information they are reading is accurate. But, unfortunately, 
that is not always the case. Online actors, including nation-
states, companies, and individual fraudsters, are using online 
tools to manipulate and deceive Americans. While some methods 
of deception are well-known, many are new and sophisticated, 
fooling even the most savvy consumers.
    Today, technology has made it difficult, if not impossible, 
for typical consumers to recognize what is real from what is 
fake. And why exactly are people putting so much effort into 
the development and misuse of technology? Because they know 
that trust is the key to influencing and taking advantage of 
people, whether for social, monetary, or political gain. If bad 
actors can make people believe a lie, then they can manipulate 
us into taking actions we wouldn't otherwise take.
    In some instances, we can no longer even trust our eyes. 
Videos can be slowed to make someone appear intoxicated. Faces 
can be Photoshopped onto someone else's body. Audio can be 
edited in a way that a person's words are basically taken out 
of context. And the extent of such manipulation has become 
extreme. Machine-learning algorithms can now create completely 
fake videos, known as deepfakes, that look real. Deepfakes can 
show real people saying or doing things that they never said or 
did.
    For example, face-swapping technology has been used to 
place actor Nicolas Cage into movies where he never was. Actor/
director Jordan Peele created a deepfake supposedly showing 
President Obama insulting President Trump.
    The most common use of deepfakes is nonconsensual 
pornography, which has been used to make it appear as if 
celebrities have been videotaped in compromising positions. And 
deepfake technology was also used to humiliate a journalist 
from India who was reporting on an 8-year-old rape victim.
    Advances in algorithms are also behind the glut of social 
media bots, automated systems that interact on social media as 
if they were real people. These bots are used by companies and 
other entities to build popularity of brands and respond to 
consumer service requests. Even more alarming is the use of 
these bots by both state and nonstate actors to spread 
disinformation, which can influence the very fabric of our 
society and our politics.
    And manipulation can be very subtle. Deceptive designs, 
sometimes called dark patterns, capitalize on knowledge of our 
senses, operate to trick us into making choices that benefit 
the business. Have you ever tried to unsubscribe from a mailing 
list and there is a button to stay subscribed that is bigger 
and more colorful than the unsubscribe button? And that is 
deceptive design. Banner ads have been designed with black 
spots that look like dirt or hair on the screen to trick you 
into tapping the ``add'' on your smartphone. And there are so 
many other examples.
    And since these techniques are designed to go unnoticed, 
most consumers have no idea they are happening. In fact, they 
are almost impossible for experts in types of techniques to 
detect. And, while computer scientists are working on 
technology that can help detect each of these deceptive 
techniques, we are in a technological arms race. As detection 
technology improves, so does the deceptive technology. 
Regulators and platforms trying to combat deception are left 
playing Whac-a-mole.
    Unrelenting advances in these technologies and their abuse 
raise significant questions for all of us. What is the 
prevalence of these deceptive techniques? How are these 
techniques actually affecting our actions and decisions? What 
steps are companies and regulators taking to mitigate consumer 
fraud and misinformation?
    So I look forward to beginning to answer these questions 
with our expert witness panel today so we can start to provide 
more transparency and tools for consumers to fight 
misinformation and deceptive practices.
    And, Madam Chair, I just want to say I think this is a very 
important hearing. I was just telling my colleague, Kathy 
Castor, this morning about a discussion that we had at our 
chairs meeting this morning, where the topic was brought up. 
And I said, ``Oh, you know, we are having a hearing on this 
today.'' So this is something a lot of Members and, obviously, 
the public care about. So thank you for having the hearing 
today.
    I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    Americans increasingly rely on the internet for fundamental 
aspects of their daily lives. Consumers shop online for 
products ranging from groceries to refrigerators. They use the 
internet to telecommute or to check the weather and traffic 
before leaving for the office. And they use social media 
networks to connect with family and friends and as a major 
source of news and information.
    When consumers go online they understandably assume that 
the reviews of the products they buy are real, that the people 
on their social networks are human, and that the news and 
information they are reading is accurate. Unfortunately, that 
is not always the case.
    Online actors, including nation-states, companies, and 
individual fraudsters, are using online tools to manipulate and 
deceive Americans. While some methods of deception are well 
known, many are new and sophisticated, fooling even the most 
savvy consumers. Today, technology has made it difficult, if 
not impossible, for typical consumers to recognize what's real 
from what's fake.
    And why exactly are people putting so much effort into the 
development and misuse of this technology? Because they know 
that trust is the key to influencing and taking advantage of 
people. Whether for social, monetary, or political gain, if bad 
actors can make people believe a lie, they can manipulate us 
into taking actions we wouldn't otherwise take.
    In some instances, we can no longer even trust our eyes. 
Videos can be slowed to make someone appear intoxicated. Faces 
can be Photoshopped onto someone else's body. Audio can be 
edited in a way that takes a person's words out of context.
    The extent of such manipulation has become extreme. Machine 
learning algorithms can now create completely fake videos, 
known as deepfakes, that look real. Deepfakes can show real 
people saying or doing things they never said or did.
    For example, face-swapping technology has been used to 
place actor Nicolas Cage into movies he was never in. Actor-
director Jordan Peele created a deepfake supposedly showing 
President Obama insulting President Trump. The most common use 
of deepfakes is nonconsensual pornography, which has been used 
to make it appear as if celebrities have been videotaped in 
compromising positions. Deepfake technology was also used to 
humiliate a journalist from India who was reporting on an 8-
year-old rape victim.
    Advances in algorithms are also behind the glut of social 
media bots, automated systems that interact on social media as 
if they were real people. These bots are used by companies and 
other entities to build popularity of brands and respond to 
customer service requests. Even more alarming is the use of 
these bots by both state and nonstate actors to spread 
disinformation, which can influence the very fabric of our 
societies and our politics.
    And manipulation can be very subtle. Deceptive design, 
sometimes called ``dark patterns,'' capitalize on knowledge of 
how our senses operate to trick us into making choices that 
benefit the business. Have you ever tried to unsubscribe from a 
mailing list and there's a button to stay subscribed that's 
bigger and more colorful than the unsubscribe button? That's 
deceptive design. Banner ads have been designed with black 
spots that look like dirt or a hair on the screen to trick you 
into tapping the ad on your smartphone. And there are many more 
examples.
    Since these techniques are designed to go unnoticed, most 
consumers have no idea they are happening. In fact, they are 
almost impossible for experts in types of techniques to detect.
    While computer scientists are working on technology that 
can help detect each of these deceptive techniques, we are in a 
technological arms race. As detection technology improves, so 
does the deceptive technology. Regulators and platforms trying 
to combat deception are left playing Whac-a-Mole.
    Unrelenting advances in these technologies and their abuse 
raise significant questions for all of us. What is the 
prevalence of these deceptive techniques? How are these 
techniques actually affecting our actions and decisions? What 
steps are companies and regulators taking to mitigate consumer 
fraud and misinformation?
    I look forward to beginning to answer these questions with 
our expert witness panel today so that we can start to provide 
more transparency and tools for consumers to fight 
misinformation and deceptive practices.

    Ms. Schakowsky. The gentleman yields back.
    And now the Chair recognizes Mr. Walden, the ranking member 
of the full committee, for 5 minutes for his opening statement.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Good morning, Madam Chair. Thanks for having 
this hearing and welcome everyone in. I guess this is the 
second hearing of the new year. There is one that started 
earlier upstairs, but we welcome you all to hear this important 
topic and glad to hear from our witnesses today, even those who 
I am told have health issues this morning, but thanks for being 
here.
    As with anything, the internet presents bad actors with 
those seeking to harm others some ample opportunities to 
manipulate the users and take advantage of consumers, which 
often tend to be some of the most vulnerable in the population. 
Arguably, the digital ecosystem is such that harmful acts are 
easily exacerbated, and as we all know, false information or 
fake videos spread at breakneck speeds.
    That is why, when I was chairman of this committee, we 
tried to tackle this whole issue with platform responsibility 
head on, and we appreciate the input we got from many. Last 
Congress, we, as you heard, held hearings and legislated on 
online platforms not fulfilling their Good Samaritan 
obligations, especially when it comes to online human 
trafficking.
    Companies' use of algorithms and the impact such algorithms 
have on influencing consumer behavior, we took a look at that. 
Improving/expanding the reach of broadband services so rural 
and urban consumers of all ages can benefit in a connected 
world from the positive aspects of the internet. Explaining the 
online advertising ecosystem, preservation and promotion across 
border data flows, a topic we need to continue to work on. 
Other related issues we face in the connected world, such as 
cybersecurity, Internet of Things, artificial intelligence, to 
name just a few.
    We also invited the heads of the tech industry to come and 
explain their practices right in this hearing room. Two of the 
committee's highest-profile hearings in recent memory focused 
squarely on platform responsibility. The CEO of Facebook, Mark 
Zuckerberg, came and spent about 5\1/2\ hours right at that 
table to answer some pretty tough questions on the Cambridge 
Analytica debacle as well as provide the committee with more 
insight into how Facebook collects consumer information and 
what Facebook does with that information.
    We also welcomed the CEO of Twitter, Jack Dorsey, to 
provide the committee with more insight into how Twitter 
operates, decisions Twitter makes on its platform, and how such 
decisions impact consumers specifically, so voices don't feel 
silenced.
    I am pleased that Chairman Pallone brought in the CEO of 
Reddit last year, and hope the trend will continue as we 
understand this ever-evolving and critically important 
ecosystem from those that sit on the top of it.
    This hearing today helps with that, as this group of 
experts shine a light on questionable practices I hope can 
yield further fruitful results. Such efforts often lead to 
swifter actions than any government action can get done.
    Following our series of hearings, there is proof that some 
companies are cleaning up their platforms, and we appreciate 
the work you are doing. For example, following our hearing on 
Cambridge Analytica, Facebook made significant changes to its 
privacy policies and Facebook reformatted its privacy settings, 
to make more accessible and user-friendly, ease the ability for 
its users to delete and control their information, took down 
malicious entities on its platform, and invested in programs to 
preserve and promote legitimate local news operations.
    And during that hearing, Representative McKinley actually 
pushed Mr. Zuckerberg pretty hard on some specific ads he had 
seen illegally selling opioids without prescriptions on 
Facebook, and as a result, Facebook removed those ads. In fact, 
we got a call, I think as Mr. Zuckerberg was headed to the 
airport that afternoon, that those had already been taken down.
    Also notable, through the Global Internet Forum to Counter 
Terrorism, platforms such as Facebook, Twitter, and YouTube 
have been working together to tackle terrorist content and, 
importantly, disrupt violent extremists' ability to promote 
themselves, share propaganda, and exploit digital platforms. 
And we thank you for that work.
    Now, this is not to suggest the online ecosystem is 
perfect. It is far from it. Can these companies be doing more 
to clean up their platforms? Of course, and I expect them to, 
and I think you are all working on that.
    So let me be very clear. This hearing should serve as an 
important reminder to all online platforms that we are watching 
them closely. We want to ensure we do not harm innovation, but, 
as we have demonstrated in a bipartisan fashion in the past, 
when we see issues or identify clear harms to consumers and we 
do not see online entities taking appropriate action, we are 
prepared to act.
    So, Madam Chair, thanks for having this hearing. This is 
tough stuff. I have a degree in journalism. I am a big advocate 
of the First Amendment. And it can be messy business to, on the 
one hand, call on them to take down things we don't like and 
still stay on the right side of the First Amendment, because 
vigorous speech, even when it is inaccurate, is still protected 
under the First Amendment. And if you go too far, then we yell 
at you for taking things down that we liked. And if you don't 
take down things we don't like, then we yell at you for that. 
So you are kind of in a bit of a box, and yet we know 230 is an 
issue we need to revise and take a look at as well.
    And then speaking of revise, I had to chuckle that we all 
get the opportunity to revise and extend our remarks throughout 
this process and clean up our bad grammar. So maybe some of 
what we have is kind of fake reporting, but anyway, we will 
leave that for another discussion on another day.
    And, with that, I yield back, Madam Chair.
    [The prepared statement of Mr. Walden follows:]

                 Prepared Statement of Hon. Greg Walden

    Good morning, and welcome to our witnesses. I want to first 
thank Chair Schakowsky for organizing today's incredibly 
insightful hearing--which is focused on deception online.
    For many years, the internet has been a force for good. It 
provides consumers with unbelievable access to unlimited 
information, goods and services, and people--no matter where 
they are in the world.
    But, as with anything, the internet presents bad actors and 
those seeking to harm others ample opportunities to manipulate 
users and take advantage of consumers, which often tend to be 
some of our most vulnerable populations. Arguably, the digital 
ecosystem is such that harmful acts are easily exacerbated and, 
as we all know, false information or fake videos spread at 
breakneck speeds. That is why when I was chairman of this 
committee, we tackled platform responsibility head-on.
    Last Congress, we held hearings and legislated on:
    <bullet> Online platforms not fulfilling their ``Good 
Samaritan'' obligations, especially when it comes to online 
human sex trafficking.
    <bullet> Companies' use of algorithms and the impact such 
algorithms have on influencing consumer behavior;
    <bullet> Improving and expanding the reach of broadband 
services so rural and urban, consumers of all ages, can benefit 
in a connected world;
    <bullet> Explaining the online advertising ecosystem;
    <bullet> Preservation and promotion of cross-border data 
flows; and
    <bullet> Other related issues we face in the connected 
world such as cybersecurity, Internet of Things, artificial 
intelligence, to name just a few.
    We also invited the heads of tech industry to come explain 
their practices in this hearing room. Two of the committee's 
highest profile hearings in recent memory were focused squarely 
on platform responsibility.
    I brought in the CEO of Facebook, Mark Zuckerberg, to 
answer tough questions on the Cambridge Analytica debacle, as 
well as provide the committee with more insight into how 
Facebook collects consumer information, and what Facebook does 
with that information.
    I also welcomed the CEO of Twitter, Jack Dorsey, to provide 
the committee with more insight into how Twitter operates, 
decisions Twitter makes on its platform, and how such decisions 
impact consumers, specifically so voices don't feel silenced.
    I am pleased that Chairman Pallone brought in the CEO of 
Reddit last year and hope the trend will continue as we 
understand this ever-evolving ecosystem from those that sit on 
top of it. This hearing today helps with that as this group of 
experts shine a light on questionable practices that I hope can 
yield further fruitful results. Such efforts often lead to 
swifter action than any government action can.
    Following our series of hearings, there is proof that some 
companies are cleaning up their platforms. For example, 
following our hearing on the Cambridge Analytica scandal, 
Facebook made significant changes to its privacy policies. 
Facebook reformatted its privacy settings to make it more 
accessible and user friendly; eased the ability for its users 
to control and delete their information; took down malicious 
entities on its platform; and, invested in programs to preserve 
and promote legitimate local news operations. And during that 
hearing Rep. McKinley pushed Mr. Zuckerberg on specific ads 
he'd seen illegally selling opioids without prescription on 
Facebook. As a result, Facebook removed the ads.
    Also notable--through the Global Internet Forum to Counter 
Terrorism--platforms such as Facebook, Twitter, and YouTube 
have been working together to tackle terrorist content and, 
importantly, disrupt violent extremists' ability to promote 
themselves, share propaganda, and exploit digital platforms.
    Now this is not to suggest the online ecosystem is 
perfect--it is far from it. Can these companies be doing more 
to clean up their platforms? Of course, they can, and I expect 
them to.
    So, let me be very clear: This hearing should serve as an 
important reminder to all online platforms that we are watching 
them closely. We want to ensure we do not harm innovation, but 
as we have demonstrated in a bipartisan fashion in the past, 
when we see issues or identify clear harms to consumers and we 
do not see online entities taking appropriate action, we are 
prepared to act.
    Thank you. I yield back.

    Ms. Schakowsky. The gentleman yields back.
    And the Chair would like to remind Members that, pursuant 
to committee rules, all Members' opening statements shall be 
made part of the record.
    I would now like to introduce our witnesses for today's 
hearing.
    Ms. Monika Bickert, vice president of Global Policy 
Management at Facebook. I want to acknowledge and thank you, 
Ms. Bickert. I know that you are not feeling well today and may 
want to abbreviate some of your testimony, but we thank you 
very much for coming anyway.
    I want to introduce Dr. Joan Donovan, research director of 
the Technology and Social Change Project at the Shorenstein 
Center on Media, Politics and Public Policy at Harvard Kennedy 
School.
    Mr. Justin Hurwitz, assistant professor of law and director 
of NU Governance and Technology Center at the University of 
Nebraska College of Law, and director of law and economics 
programs at the International Center for Law and Economics.
    And finally, Dr. Tristan Harris, who is executive director 
for the Center for Humane Technology.
    We want to thank our witnesses for joining us today. We 
look forward to your testimony.
    At this time, the Chair will recognize each witness for 5 
minutes to provide their opening statement. Before we begin, I 
would just like to explain the lighting system for those who 
may not know it. In front of you are a series of lights. The 
lights will initially be green at the start of your opening 
statement. The light will turn to yellow when you have 1 minute 
remaining, and if you could please begin to wrap up your 
testimony at that point, and then the light will turn red when 
your time has expired.
    So, Ms. Bickert, you are recognized for 5 minutes.

 STATEMENTS OF MONIKA BICKERT VICE PRESIDENT OF GLOBAL POLICY 
MANAGEMENT, FACEBOOK; JOAN DONOVAN, Ph.D., DIRECTOR, TECHNOLOGY 
    AND SOCIAL CHANGE PROJECT, SHORENSTEIN CENTER ON MEDIA, 
  POLITICS AND PUBLIC POLICY, HARVARD KENNEDY SCHOOL; JUSTIN 
    (GUS) HURWITZ, DIRECTOR OF LAW AND ECONOMICS PROGRAMS, 
INTERNATIONAL CENTER FOR LAW AND ECONOMICS; AND TRISTAN HARRIS, 
     PRESIDENT AND COFOUNDER, CENTER FOR HUMANE TECHNOLOGY

                  STATEMENT OF MONIKA BICKERT

    Ms. Bickert. Thank you, Chairwoman Schakowsky, Ranking 
Member McMorris Rodgers, and other distinguished members of the 
subcommittee. Thank you for the opportunity to appear before 
you today.
    My name is Monika Bickert. I am the vice president for 
Global Policy Management at Facebook, and I am responsible for 
our content policies. As the chairwoman pointed out, I am a 
little under the weather today so, with apologies, I am going 
to keep my remarks short, but will rely on the written 
testimony I have submitted.
    We know that we have an important role to play at Facebook 
in addressing manipulation and deception on our platform. And 
we have many aspects to our approach, including our community 
standards, which specify what we will remove from the site, and 
our relationship with third-party fact checkers, through which 
fact-checking organizations can rate content as false. We put a 
label over that content saying that this is false information, 
and we reduce its distribution.
    Under the community standards, there are some types of 
misinformation that we remove, such as attempts to suppress the 
vote or to interfere with the Census. And we announced 
yesterday a new prong in our policy where we will also remove 
videos that are edited or synthesized, using artificial 
intelligence, or deep learning techniques, in ways that are not 
apparent to the average person that would mislead the average 
person to believe that the subject of the video said something 
that he or she did not, in fact, say.
    To be clear, manipulated media that doesn't fall under this 
new policy definition is still subject to our other policies 
and our third-party fact checking. That means that deepfakes 
are still an emerging technology. One area where internet 
experts have seen them is in nudity and pornography. All of 
that violates our policies against nudity and pornography, and 
we would remove it. Manipulated videos are also eligible to be 
fact-checked by these third-party fact-checking organizations 
that we work with to label and reduce the distribution of 
misinformation.
    We are always improving our policies and our enforcement, 
and we will continue to do the engagement we have done outside 
the company with academics and experts to understand the new 
ways that these technologies are emerging and affecting our 
community. We would also welcome the opportunity to collaborate 
with other industry partners and interested stakeholders, 
including academics, civil society, and lawmakers, to help 
develop a consistent industry approach to these issues. Our 
hope is that by working together with all of these 
stakeholders, we can make faster progress in ways that benefit 
all of society.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Bickert follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Schakowsky. Thank you.
    And now, Dr. Donovan, you are recognized for 5 minutes.

                STATEMENT OF JOAN DONOVAN, Ph.D.

    Dr. Donovan. Thank you, Chairwoman Schakowsky, Ranking 
Member McMorris Rodgers, Chairman Pallone, and Ranking Member 
Walden, for having me today. It is truly an honor to be 
invited.
    I lead a team at Harvard Kennedy's Shorenstein Center that 
researches online manipulation and deception, and I have been a 
researcher of the internet for the last decade. So I know quite 
a bit about changes in policies as well as the development of 
platforms themselves and what they were intended to do.
    One of the things that I want to discuss today is online 
fraud, which is a great deal more widespread than many 
understand. Beyond malware, spam, and phishing attacks, beyond 
credit card scams and product knock-offs, there is a growing 
threat from new forms of identity fraud enabled by 
technological design. Platform companies are unable to manage 
this alone, and Americans need governance. Deception is now a 
multimillion-dollar industry.
    My research team tracks dangerous individuals and groups 
who use social media to pose as political campaigns, social 
movements, news organizations, charities, brands and even 
average people. This emerging economy of misinformation is a 
threat to national security. Silicon Valley corporations are 
largely profiting from it, while key political and social 
institutions are struggling to win back the public's trust.
    Platforms have done more than just given users a voice 
online. They have effectively given them the equivalent of 
their own broadcast station, emboldening the most malicious 
among us. To wreak havoc with a media manipulation campaign, 
all one bad actor needs is motivation. Money also helps. But 
that is enough to create chaos and divert significant resources 
from civil society, politicians, newsrooms, healthcare 
providers, and even law enforcement, who are tasked with 
repairing the damage. We currently do not know the true cost of 
misinformation.
    Individuals and groups can quickly weaponize social media, 
causing others financial and physical injury. For example, 
fraudsters using President Trump's image, name, logo and voice 
have siphoned millions from his supporters by claiming to be 
part of his reelection coalition. In an election year, 
disinformation and donation scams should be of concern to 
everyone. Along with my coresearchers Brian Friedberg and 
Brandi Collins-Dexter, I have studied malicious groups, 
particularly white supremacists and foreign actors, who have 
used social media to inflame racial divisions. Even as these 
imposters are quickly identified by the communities they 
target, it takes time for platforms to remove inciting content. 
A single manipulation campaign can create an incredible strain 
on breaking news cycles, effectively turning many journalists 
into unpaid content moderators and drawing law enforcement 
towards false leads.
    Today, I argue that online communication technologies need 
regulatory guardrails to prevent them from being used for 
manipulative purposes. And in my written testimony, I have 
provided a longer list of ways that you could think about 
technology differently.
    But right now, I would like to call attention to 
deceptively edited audio and video to drive clicks, likes, and 
shares. This is the AI technology commonly referred to as 
deepfakes. And what I would also like to point out, with my 
coresearcher Britt Paris, that we have argued that cheapfakes 
are a wider threat. Like the doctored video of Speaker Pelosi, 
last week's decontextualized video of Joe Biden seemingly 
endorsing a white supremacist talking point poses another 
substantial challenge. Because the Biden video was clipped from 
nonaugmented footage, platforms refused to take down this 
cheapfake. Millions have now seen it.
    Platforms, like radio towers, provide amplification power 
and, as such, they have a public-interest obligation. And I 
point out here that platforms are highly centralized mechanisms 
of distribution, while the internet is not. So I am not trying 
to conflate platforms with the internet, but this is why we 
place the burden of moderation on platforms and not with ISPs.
    The world online is the real world, and this crisis of 
counterfeits threatens to disrupt the way Americans live our 
lives. Right now, malicious actors jeopardize how we make 
informed decisions about who to vote for and what causes we 
support, while platform companies have designed systems that 
facilitate this manipulation.
    We must expand the public understanding of technology by 
guarding consumer rights against technological abuse, including 
a cross-sector effort to curb the distribution of harmful and 
malicious content. As Danah Boyd and I have written, platform 
companies must address the power of amplification and 
distribution separately from content, so that media 
distribution is transparent and accountable. I urge Congress to 
do the same. Platforms and politics and regulation and 
technology must work in tandem, or else the future is forgery. 
Thank you.
    [The prepared statement of Dr. Donovan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Schakowsky. Thank you.
    And now, Mr. Hurwitz, you are recognized for 5 minutes.

               STATEMENT OF JUSTIN (GUS) HURWITZ

    Mr. Hurwitz. Thank you, Ms. Chairwoman, along with members 
of the committee, for the opportunity to speak to you today. I 
would also be remiss if I did not thank my colleague Kristian 
Stout and research assistant Justin McCully for help in 
drafting my written testimony.
    I am a law professor, so I apologize. I will turn to 
discussing the short law review article I have written for you 
as my testimony and assigned to you to read in a moment. Before 
I turn to that, I want to make a couple of book 
recommendations. If you really want to understand what is at 
stake with dark patterns, you should start by reading Brett 
Frischmann and Evan Selinger's recent book, ``Re-Engineering 
Humanity.'' In my spare time, I am a door-to-door book 
salesman. I have a copy here. Their book discusses how modern 
technology, data analytics, combined with highly programmable 
environments, are creating a world in which people are, to use 
their term, programmable. This book will scare you.
    After you read that book, you should then read Cliff Kuang 
and Robert Fabricant's recent book, ``User Friendly.'' This was 
just published in November. It discusses the importance and 
difficulty of designing technologies that seamlessly operate in 
line with user expectations as user-friendly technologies. This 
book will help you understand the incredible power of user-
friendly design and fill you with hope for what design makes 
possible, along with appreciation for how difficult it is to do 
design well. Together, these books will show you both sides of 
the coin.
    Dark patterns are something that this committee absolutely 
should be concerned about, but this committee should also 
approach the topic with great caution. Design is powerful, but 
it is incredibly difficult to do well. Efforts to regulate bad 
uses of design could easily harm efforts to do and use design 
for good.
    How is that for having a professor testify? I have already 
assigned two books and a law review article of my own for you 
to read. I will do what I can to summarize some of the key 
ideas from that article in the next 3 minutes or so.
    Dark pattern is an ominous term. It is itself a dark 
pattern. It is a term for a simple concept. People behave in 
predictable ways. These behavioral patterns can be used to 
program us in certain ways, and the concern is that sometimes 
we can be programmed to act against our own self-interest.
    So I have some examples. If we can look at the first 
example, this is something from the internet.
    [Slide shown, included in Mr. Hurwitz's prepared statement 
below.]
    You look at this for a moment. Who here feels manipulated 
by this image? It is OK to say yes. I do. The designer of this 
image is using his knowledge of how people read text in an 
image to make it feel like the image is controlling us, making 
us control how our eyes are following it and predicting where 
we are going to go next. Weird stuff.
    Let's look at another example. Again, you can definitely 
tell from the internet.
    [Slide shown, included in Mr. Hurwitz's prepared statement 
below.]
    Again, who feels like this image is manipulative? The 
previous image was harmless, but this one hints at the darker 
power of dark patterns. Most of you probably missed the typos 
in the first line and then the second line until the text 
points them out to you. What if this had been a contract and 
this trick was used to insert a material term or distract you 
from a material term in the contract that you were agreeing to? 
This has now gone from weird stuff to scary stuff.
    On the other hand, these same tricks can be used for good. 
In this same example, what if this trick were used to highlight 
an easily missed but important concern for consumers to pay 
attention to? This could be beneficial to consumers.
    Design is not mere aesthetics. All design influences how 
designs are made. It is not possible to regulate bad design 
without also affecting good design.
    So how much of a problem are dark patterns? Recent research 
shows that websites absolutely are using them, sometimes 
subtly, sometimes overtly, to influence users. And other 
research shows us that these tactics can be effective, leading 
consumers to do things that they otherwise wouldn't do. We have 
already heard some examples of these, so I won't repeat what 
has already been discussed. Rather, I would like to leave you 
with a few ideas about what, if anything, we should do about 
them.
    First, dark patterns are used both online and offline. 
Stores use their floor plans to influence what people buy. 
Advertisers make consumers feel a sense of need and urgency for 
products. Try canceling a subscription service or returning a 
product. You will likely be routed through a maddening maze of 
consumer service representatives. If these patterns are a 
problem online, they are a problem offline, too. We shouldn't 
focus on one to the exclusion of the other.
    Second, while these tricks are annoying, it is unclear how 
much they actually harm consumers or how much benefit they may 
confer. Studies of mandatory disclosure laws, for instance, 
find that they have limited effectiveness. On the other hand, 
these tricks can also be used to benefit consumers. We should 
be cautious with regulations that may fail to stop bad conduct 
while reducing the benefits of good conduct.
    Third, most of the worst examples of dark patterns very 
likely fall within the FTC's authority to regulate deceptive 
acts or practices. Before the legislature takes any action to 
address these concerns, the FTC should attempt to use its 
existing authority to address them. It is already having 
hearings on these issues. If this proves ineffective, the FTC 
should report to you, to Congress, on these practices.
    Fourth, industry has been responsive to these issues and, 
to some extent, has been self-regulating. Web browsers and 
operating systems have made many bad design practices harder to 
use. Design professionals scorn dark patterns practices. 
Industry standardization and best practices and self-
regulations should be encouraged.
    Fifth, regulators should----
    Ms. Schakowsky. Wrap it up.
    Mr. Hurwitz. Yes. Last and building on all of the above, 
this is an area well-suited to cooperation between industry and 
regulators. Efforts at self-regulation should be encouraged and 
rewarded. Perhaps even more important, given the complexity of 
these systems, industry should be at the front line of 
combating them. Industry has greater design expertise and 
ability to experiment than regulators, but there is an 
important role for regulation to step in where industry fails 
to police itself.
    In a true professor--thank you. I look forward to 
discussion.
    [The statement of Mr. Hurwitz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Schakowsky. So, Mr. Harris, you are recognized now for 
5 minutes.

                  STATEMENT OF TRISTAN HARRIS

    Mr. Harris. Thank you, Chairwoman Schakowsky and members. I 
really appreciate you inviting me here.
    I am going to go off script. I come here because I am 
incredibly concerned. I actually have a lifelong experience 
with deception and how technology influences people's minds. I 
was a magician as a kid, so I have started off by seeing the 
world this way. And then I studied at a lab called the Stanford 
Persuasive Technology Lab, actually with the founders of 
Instagram. And so I know the culture of the people who build 
these products and the way that it is designed intentionally 
for mass deception.
    I think there is--the thing I most want to respond to here 
is we often frame these issues as we have got a few bad apples. 
We have got these bad deepfakes, we have got to get them off 
the platform. We have got this bad content. We have got these 
bad bots. What I want to argue is this is actually--and we have 
got these dark patterns.
    What I want to argue is we have dark infrastructure. This 
is now the infrastructure by which 2.7 billion people, bigger 
than the size of Christianity, make sense of the world. It is 
the information environment. And if someone went along, private 
companies, and built nuclear power plants all across the United 
States, and they started melting down and they said, ``Well, it 
is your responsibility to have HazMat suits and, you know, have 
a radiation kit,'' that is essentially what we are experiencing 
now. The responsibility is being put on consumers when, in 
fact, if it is the infrastructure, it should be put on the 
people building that infrastructure.
    There are specifically two areas of harm I want to focus 
on, even though when this becomes the infrastructure it 
controls all of our lives. So we wake up with these devices. We 
check our phones 150 times a day. It is the infrastructure for 
going to bed. Children spend as much time on these devices as 
they do at the hours at school. So no matter what you are 
putting in people's brains, kids' brains at school, you have 
got all the hours they spend, you know, on their phones.
    And let's take the kids' issue. So as infrastructure, the 
business model of this infrastructure is not aligned with the 
fabric of society. How much have you paid for your Facebook 
account recently, or your YouTube account? Zero. How are they 
worth more than a trillion dollars in market value? They 
monetize our attention. The way they get that attention is by 
influencing you and using the dark patterns or tricks to do it.
    So the way they do it with children is they say, ``How many 
likes or followers do you have?'' So they basically get 
children addicted to getting attention from other people. They 
use filters, likes, et cetera, beautification filters that 
enhance your self-image. And after two decades in decline, the 
mental health of teen girls, high-depressive symptoms--there is 
an image here that they will be able to show--went up 170 
percent after the year 2010, with the rise of Instagram, et 
cetera. OK. These are your children. These are your 
constituents. This is a real issue. It is because we are 
hacking the self-image of children.
    On the information ecology front, the business model, think 
of it like we are drinking from the Flint water supply of 
information. The business model is polarization, because the 
whole point is I have to figure out and calculate whatever 
keeps your attention, which means affirmation, not information, 
by default. It polarizes us by default.
    There is a recent Upturn study that it actually costs more 
money to advertise across the aisle than it does to advertise 
to people with your own same beliefs. In other words, 
polarization has a home field advantage in terms of the 
business model. The natural function of these platforms is to 
reward conspiracy theories, outrage, what we call the race to 
the bottom of the brainstem. It is the reason why all of you at 
home have crazier and crazier constituents who believe crazier 
and crazier things, and you have to respond to them. I know you 
don't like that.
    Russia is manipulating our veterans by--we have totally 
open borders. While we have been protecting our physical 
borders, we left the digital border wide open. Imagine a 
nuclear plant and you said we are not going to actually protect 
the nuclear plants from Russian cyber attacks. Well, this is 
sort of like Facebook building the information infrastructure 
and not protecting it from any bad actors until that pressure 
is there.
    And this is leading to a kind of information trust 
meltdown, because no one even has to use deepfakes for 
essentially people to say, ``Well, that must be a faked video, 
right?'' So we are actually at the last turning point, kind of 
an event horizon, where we either protect the foundations of 
our information and trust environment or we let it go away.
    And, you know, we say we care about kids' education, but we 
allow, you know, technology companies to basically tell them 
that the world revolves around likes, clicks, and shares. We 
say we want to, you know, come together, but we allow 
technology to profit by dividing us into echo chambers. We say 
America should lead on the global stage against China with its 
strong economy, but we allow technology companies to degrade 
our productivity and mental health, while jeopardizing the 
development of our future workforce, which is our children.
    And so, while I am finishing up here, I just want to say 
that, instead of trying to design some new Federal agency, some 
master agency, when technology has basically taken all the laws 
of the physical world--taken all the infrastructure of the 
physical world and virtualized it into a virtual world with no 
laws--what happens when you have no laws for an entire 
virtualized infrastructure? You can't just bring some new 
agency around and regulate all of the virtual world.
    Why don't we take the existing infrastructure, existing 
agencies who already have purview--Department of Education, 
Health and Human Services, Natural Institutes of Health--and 
have a digital update that expands their jurisdiction to just 
ask, well, how do we protect the tech platforms in the same 
areas of jurisdiction?
    I know I am out of time, so thank you very much.
    [The statement of Mr. Harris follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Schakowsky. Thank you.
    So now we have concluded our witnesses' opening statements. 
At this time, we will move to Member questions. Each Member 
will have 5 minutes to ask a question of our witnesses. I will 
begin by recognizing myself for 5 minutes.
    So, as chair of the subcommittee, over and over again I am 
confronted with new evidence that Big Tech has failed in 
regulating itself. When we had Mark Zuckerberg here, I kind of 
did a review of all the apologies that we have had from him 
over the years, and I am concerned that Facebook's latest 
effort to address misinformation on the platforms leaves a lot 
out.
    I want to begin with some questions of you, Ms. Bickert. So 
the deepfakes policy only covers video, as I understand it, 
that has been manipulated using artificial intelligence, or 
deep learning. Is that correct?
    Ms. Bickert. Thank you, Chairwoman Schakowsky. The policy 
that we announced yesterday is confined to the definition that 
we set forth about artificial intelligence being used in a 
video to make it appear that somebody is saying something----
    Ms. Schakowsky. I only have 5 minutes. So the video, for 
example, of Speaker Pelosi was edited to make her look like she 
was drunk, wouldn't have been taken down under the new policy. 
Is that right, yes or no?
    Ms. Bickert. It would not fall under that policy, but it 
would still be subject to our other policies that address 
misinformation.
    Ms. Schakowsky. And, as I read the deepfakes policy, it 
only covers video where a person is made to appear like they 
said words that they didn't actually say, but it doesn't cover 
videos where just the image is altered. Is that true?
    Ms. Bickert. Chairwoman Schakowsky, that is correct about 
that policy. We do have a broader approach to misinformation 
that would put a label--we would actually obscure the image and 
put a screen over it that says ``false information,'' and 
directs people to information from fact checkers.
    Ms. Schakowsky. So, Ms. Bickert, I really don't understand 
why Facebook should treat fake audio differently from fake 
images. Both can be highly misleading and result in significant 
harm to individuals and undermine democratic institutions.
    Dr. Donovan, in your testimony, you noted that, quote, 
``cheapfakes,'' unquote, are more prevalent than deepfakes. Do 
you see any reason to treat deepfakes and cheapfakes 
differently?
    Dr. Donovan. One of the things----
    Ms. Schakowsky. Microphone.
    Dr. Donovan. Of course, as if I am not loud enough.
    One of the things that cheapfakes leverage is what is sort 
of great about social media, is that it makes things clippier, 
or smaller. And so I understand the need for separate policies, 
but also the cheapfakes issue has not been enforced. Speaking 
more broadly about social media platforms in general, there is 
completely uneven enforcement.
    So you can still find that piece of misinformation within 
the wrong context in multiple places. And so the policy on 
deepfakes is both narrow--and I understand why--but also, one 
thing that we should understand is presently there is no 
consistent detection mechanism for even finding deepfakes at 
this point. And so I would be interested to know more about how 
they are going to seek out, either on upload, not just 
Facebook----
    Ms. Schakowsky. I am going to have to cut you off at this 
point, because I do want to ask Mr. Harris.
    Given the prevalence of deceptive content online, are 
platforms doing enough to stop the dissemination of 
misinformation, and what can government do to prevent such 
manipulation of consumers? Should government be seeking to 
clarify the principle that if it is illegal offline then it is 
illegal online?
    Mr. Harris. Yes. A good example of that--so first is no, 
the platforms are not doing enough, and it is because their 
entire business model is misaligned with solving the problem. 
And I don't vilify the people because of that. It is just their 
business model is against the issue.
    We used to have Saturday morning cartoons. We protected 
children from certain kinds of advertising, time/place/manner 
restrictions. When YouTube gobbles up that part of the 
attention economy, we lose all those protections. So why not 
bring back the protections of Saturday morning? We used to have 
fair-price/equal-price election ads on TV, the same price for 
each politician to reach someone. When Facebook gobbles up 
election advertising, we just removed all of those same 
protections.
    So we are basically moving from a lawful society to an 
unlawful virtual internet society, and that is what we have to 
change.
    Ms. Schakowsky. Thank you. I yield back.
    And now the Chair recognizes Mrs. Rodgers, our subcommittee 
ranking member, for 5 minutes.
    Mrs. Rodgers. Thank you, Madam Chair.
    I referenced how misinformation is not a new problem, but 
certainly with the speed of information, how it can travel in 
the online world, its harm is increasing. That said, I have 
long believed that the way to address information is more 
transparency, more sources, more speech, not less. This is 
important, not just in an election cycle, but also in 
discussions around public health issues, natural disasters, or 
any number of significant events. I am worried about this 
renewed trend, where some want the government to set the 
parameters and potentially limit speech and expression.
    Ms. Bickert, how does free speech and expression factor 
into Facebook's content decisions, and can you please explain 
your use of third-party fact checkers?
    Ms. Bickert. Thank you. We are very much a platform for 
free expression. It is one of the reasons that we work with 
third-party fact-checking organizations, because what we do if 
they have ranked something false is, we share more information 
on the service. So we put a label over it, this is false 
information, but then we show people here is what fact checkers 
are saying about this story.
    We work with more than 50 organizations worldwide, and 
those organizations are chosen after meeting high standards for 
fact checking.
    Mrs. Rodgers. Thank you. As a followup, with the total 
volume of traffic you have, clearly human eyes alone can't keep 
up. So artificial intelligence and machine learning have a 
significant role to identify not only deepfakes but also other 
content that violates your terms of service. Would you just 
explain a little bit more to us how you use AI and the 
potential to use AI to fight fire with fire?
    Ms. Bickert. Absolutely. We do use a combination of 
technology, and people to identify potential information to 
send to fact checkers. We also use people and technology to try 
to assess whether or not something has been manipulated, media. 
That would be covered by the policy we released yesterday.
    So, with the fact-checking program, we use technology to 
look for things like--let's say somebody has shared an image or 
a news story and people are--friends are commenting on that, 
saying, ``Don't you know this is a hoax?'' or ``This isn't 
true.'' That is the sort of thing our technology can spot and 
send that content over to fact-checkers.
    But it is not just technology. We also have ways for people 
to flag if they are seeing something that they believe to be 
false. That can send content over to fact checkers. And then 
the fact checkers can also proactively choose to rate something 
that they are seeing on Facebook.
    Mrs. Rodgers. Thank you.
    Professor Hurwitz, can you briefly describe how user 
interfaces can be designed to shape consumer choice and how 
such designs may benefit or harm consumers?
    Mr. Hurwitz. They can be used--they can be modified, 
created, structured in any number of ways. We have heard 
examples: font size, text placement, the course of interaction 
with a website, or even just a phone menu system. These can be 
used to guide users into making uninformed decisions, or to 
highlight information that users should be paying attention to. 
This broadly falls into the category of nudges and behavioral 
psychology. That is an intensely researched area. It can be 
used in many ways.
    Mrs. Rodgers. You highlighted some of that in your 
testimony. Would you explain how the FTC can use its existing 
Section 5 authority to address most of the concerns raised by 
dark pattern practices?
    Mr. Hurwitz. Yes, very briefly. I could lecture for a 
semester on this, not to say that I have.
    The FTC has a broad history, long history of regulating 
unfair and deceptive practices and advertising practices. Its 
deception authority--false statements, statements that are 
material to a consumer, making a decision that is harmful to 
the consumer. They can use adjudication. They can enact rules 
in order to take action against platforms or any entity, online 
or offline, that deceives consumers.
    Mrs. Rodgers. Do you think that they are doing enough?
    Mr. Hurwitz. I would love to see the FTC do more in this 
area, especially when it comes to rulemaking and in-court 
enforcement actions, because the boundaries of their authority 
are unknown, uncertain, untested. This is an area where 
bringing suits, bringing litigation, that tells us what the 
agency is capable of, which this body needs to know before it 
tries to craft more legislation or give more authority to an 
entity. If we already have an agency that has power, let's see 
what it is capable of.
    Mrs. Rodgers. Right. OK. Thank you, everyone. I appreciate 
you all being here. Very important subject, and I appreciate 
the Chair for hosting, or having this hearing today.
    Ms. Schakowsky. I thank the ranking member, who yields 
back. And now I recognize the chair of the full committee, Mr. 
Pallone, for 5 minutes.
    Mr. Pallone. Thank you, Madam Chair.
    I have got a lot to ask here, so I am going to ask you for 
your responses to be brief, if possible. But, in your various 
testimonies, you all talked about a variety of technologies and 
techniques that are being used to deceive and manipulate 
consumers.
    We have heard about user interfaces designed to persuade 
and sometimes trick people into making certain choices, 
deepfakes and cheapfakes, that show fictional scenarios that 
look real, and algorithms designed to keep people's eyes locked 
on their screens. And we know these things are happening. But 
what is less clear is how and the extent to which these 
techniques are being used commercially and on commercial 
platforms.
    So first let me ask Dr. Donovan: As a researcher who 
focuses on the use of these techniques, do you have sufficient 
access to commercial platform data to have a comprehensive 
understanding of how disinformation and fraud is conducted and 
by whom?
    Dr. Donovan. The brief answer is no, and that is because we 
don't have access to the data as it is. There are all these 
limits on the ways in which you can acquire data through the 
interface.
    And then the other problem is that there was a very good-
faith effort between Facebook and scholars to try to get a 
bunch of data related to the 2016 election. That fell apart, 
but a lot of people put an incredible amount of time, money, 
and energy into that effort, and it failed around the issues 
related to privacy and differential privacy.
    What I would love to see also happen is, Twitter has 
started to give data related to deletions and account 
takedowns. We need a record of that so that, when we do audit 
these platforms for either financial or social harms, that the 
deletions are also included and marked. Because, even if you 
can act like a data scavenger and go back and get data, when 
things are deleted, sometimes they are just gone for good, and 
those pieces of information are often the most crucial.
    Mr. Pallone. Thank you.
    Mr. Harris, should the government be collecting more 
information about such practices in order to determine how best 
to protect Americans?
    Mr. Harris. Yes. Here is an example: So, unlike other 
addictive industries, for example--addiction is part of the 
deception that is going on here--the tobacco industry doesn't 
know which users are addicted to smoking, the alcohol industry 
doesn't know exactly who is addicted to alcohol. But, unlike 
that, each tech company does know exactly how many people are 
checking more than, you know, 100 times a day between certain 
ages. They know who is using it late at night.
    And you can imagine using existing agencies--say, 
Department of Health and Human Services--to be able to audit 
Facebook on a quarterly basis and say, ``Hey, tell us how many 
users are addicted between these ages, and then what are you 
doing next quarter to make adjustments to reduce that number?'' 
And every day they are the ones issuing the questions, and the 
responsibility and the resources have to be deployed by the 
actor that has the most of them, which in this case would be 
Facebook. And there is a quarterly loop between each agency 
asking questions like that, forcing accountability with the 
companies for the areas of their existing jurisdiction.
    So I am just trying to figure out is that a way that we can 
scale this to meet the scope of the problem. You realize this 
is happening to 2.7 billion people.
    Mr. Pallone. Thank you. This week, Facebook released a new 
policy on how it will handle deepfakes. So, Ms. Bickert, under 
your policy deepfakes are--and I am paraphrasing--videos 
manipulated through artificial intelligence that are intended 
to mislead and are not parody or satire. Did I get that right?
    Ms. Bickert. Yes, that is right.
    Mr. Pallone. OK. Now, I understand that Twitter and YouTube 
either do not have or use the same definition for deepfakes, 
and that is indicative of a lack of consistent treatment of 
problematic content across the major platforms. Banned hate 
speech or abusive behavior on one site is permitted on another. 
There seems to be very little consistency across the 
marketplace, which leaves consumers at a loss.
    So let me go to Dr. Donovan again. Is there a way to 
develop a common set of standards for these problematic 
practices so that consumers are not facing different policies 
on different websites?
    Dr. Donovan. I think it is possible to create a set of 
policies, but you have to look at the features that are 
consistent across these platforms. If they do, for instance, 
use attention to a specific post in their algorithms to boost 
popularity, then we need a regulation around that, especially 
because bots or unmanned accounts, for lack of a better term, 
are often used to accelerate content and to move content across 
platforms.
    These are things that are usually purchased off-platform, 
and they are considered a dark market product, but you can 
purchase attention to an issue. And so, as a result, there has 
to be something more broad that goes across platforms, but also 
looks at the features and then also tries to regulate some of 
these markets that are not built into the platform themselves.
    Mr. Pallone. All right. Thank you.
    Thank you, Madam Chair.
    Ms. Schakowsky. Thank you.
    Mr. Bucshon, you are recognized for 5 minutes.
    Mr. Bucshon. Thank you, Madam Chairwoman. I am sorry, I 
have two of these hearings going on at the same time, so I am 
back and forth.
    I appreciate the hearing and the opportunity to discuss the 
spread of misinformation on the internet, but I want to stress 
that I am concerned over the efforts to make tech companies the 
adjudicators of ``truth,'' in quotation marks.
    In a country founded on free speech, we should not be 
allowing private corporations, in my view, or, for that matter, 
the government to determine what qualifies as, again in 
quotation marks, the ``truth,'' potentially censoring a voice 
because that voice disagrees with a mainstream opinion. That 
said, I totally understand the difficulty and the challenges 
that we all face together concerning this issue, and how we 
are, together, trying to work to address it.
    Ms. Bickert, can you provide some more information on how 
Facebook might or will determine if a video misleads? What 
factors might you consider?
    Ms. Bickert. Thank you. Just to be clear, there are two 
ways that we might be looking at that issue. One is with regard 
to the deepfakes policy that we released yesterday. And we will 
be looking to see, specifically, were we seeing artificial 
intelligence and deep learning? Was that part of the technology 
that led to change or fabricate a video in a way that really 
wouldn't be evident to the average person? And that will be a 
fundamental part of determining whether there is misleading.
    Separately----
    Mr. Bucshon. Can I ask a question? Who is the average--
sorry, I will wait until you quit coughing so you can hear me.
    Ms. Bickert. I am sorry.
    Mr. Bucshon. The question then--I mean, I am playing 
devil's advocate here--who is the average person?
    Ms. Bickert. Congressman, these are exactly the questions 
that we have been discussing with more than 50 experts as we 
have tried to write this policy and get it in the right place.
    Mr. Bucshon. And I appreciate what you are doing. I am not 
trying to be difficult here.
    Ms. Bickert. No, these are real challenging issues. It is 
one of the reasons that we think, generally, the approach to 
misinformation of getting more information out there from 
accurate sources is effective.
    Mr. Bucshon. And you stated in your testimony that, once a 
fact checker rates a photo or video as false, or partly false, 
Facebook reduces the distribution. Is there a way for an 
individual who may have posted these things to protest the 
decision?
    Ms. Bickert. Yes, Congressman. They can go directly to the 
fact checker. We make sure there is a mechanism for that. And 
they can do that either if they dispute it or if they have 
amended whatever it was in their article that was the problem.
    Mr. Bucshon. Right. Because I would say--I mean, people 
with good lawyers can dispute a lot of things, but the average 
citizen in southwest Indiana who posts something online, there 
needs to be, in my view, a fairly straightforward process that 
the average person, whoever that might be, can understand to 
protest or dispute the fact that their distribution has been 
reduced. Thank you.
    Mr. Hurwitz, you have discussed that the FTC has current 
authority to address dark pattern. However, I would be 
interested to know your thoughts on how consumers can protect 
themselves from these patterns and advertisements. Is the only 
solution through government action, or can consumer education 
help highlight these advertisement practices?
    Mr. Hurwitz. The most important thing for any company, 
especially in the online context, is trust, the trust of the 
consumers. Consumer education, user education, is important, 
but I think that it is fair to say, with condolences perhaps to 
Ms. Bickert, Facebook has a trust problem. If consumers--if 
users stop trusting these platforms, if hearings such as this 
shine a light on bad practices, then they are going to have a 
hard time retaining users and consumers. That puts a great deal 
of pressure.
    In addition, stability of practices. One dark pattern is to 
constantly change the user interface, so users don't know how 
it operates. If we have stability, if we have platforms that 
operate in consistent, predictable ways, that helps users 
become educated, helps users understand what the practices are, 
and learn how to operate in this new environment. Trust on the 
internet is different. We are still learning what it means.
    Mr. Bucshon. And I know you went over this, but can you 
talk again about how these dark pattern practices took place 
before the internet and are currently happening in brick-and-
mortar stores and other areas, mail pieces that politicians 
send out.
    I mean, I just want to reiterate again: This is a broader 
problem than just the internet, this is something that has been 
around for a while.
    Mr. Hurwitz. Yes. Dark patterns, these practices, they go 
back to the beginning of time. Fundamentally, they are 
persuasion. If I want to convince you of my world view, if I 
want to convince you to be my customer, if I want to convince 
you to be my friend, I am going to do things that influence 
you. I am going to present myself to you in ways that are going 
to try and get you to like me or my product.
    If you come into my store and ask for a recommendation--
``What size tire do I need for my car?''--my sales 
representative is going to give you information. The store is 
going to be structured--these have been used consistently 
throughout----
    Mr. Bucshon. My time is expired. My point was is that, when 
we look at this problem, we need to, in my view, take a 
holistic approach about what has happened in the past and, with 
emerging technology, how we address that consistently and not 
just target specific industries.
    Thank you. I yield back.
    Ms. Schakowsky. The gentleman yields back.
    I now recognize Congresswoman Castor for 5 minutes.
    Ms. Castor. Well, thank you, Chairwoman Schakowsky, for 
calling this hearing.
    You know, the internet and online platforms have developed 
over time without a lot of safeguards for the public. And 
government here, we exercise our responsibility to keep the 
public safe, whether it is the cars we drive, or the water we 
drink, airplanes, drugs that are for sale. And really, the same 
should apply to the internet and online platforms.
    You know, there is a lot of illegal activity being promoted 
online, where the First Amendment just does not come into play. 
And I hope we don't go down that rabbit hole, because we are 
talking about human trafficking, terrorist plots, illicit sales 
of firearms, child exploitation.
    And now, what we have swamping these online platforms that 
control the algorithms that manipulate the public are the 
deepfakes, these dark patterns, artificial intelligence, 
identity theft. But these online platforms, remember, they 
control these algorithms that steer children and adults, 
everyone in certain directions, and we have got to get a handle 
on that.
    For example, Mr. Harris, one manipulative design technique 
is the autoplay feature. It is now ubiquitous across video 
streaming platforms, particularly billions of people that go 
onto YouTube or Facebook. This feature automatically begins 
playing a new video after the current video ends. The next 
video is determined using an algorithm. It is designed to keep 
the viewer's attention.
    This platform-driven algorithm often drives the 
proliferation of illegal activities and dangerous ideologies 
and conspiracy theories. It makes it much more difficult for 
the average person to try to get truth-based content.
    I am particularly concerned about the impact on kids, and 
you have raised that and I appreciate that. You discuss how the 
mental health of kids today really is at risk. Can you talk 
more about the context in which children may be particularly 
harmed by these addiction-maximizing algorithms and what 
parents can do to protect kids from becoming trapped in a 
YouTube vortex, and what you believe our responsibility is as 
policymakers?
    Mr. Harris. Thank you so much for your question. Yes, this 
is very deeply concerning to me.
    So laying it out, with more than 2 billion users, think of 
these on YouTube as 2 billion ``Truman Shows.'' Each of you get 
a channel, and a super computer is just trying to calculate the 
perfect thing to confirm your view of reality. This, by 
definition, fractures reality into 2 billion different 
polarizing channels, each of which is tuned to bring you to a 
more extreme view.
    The quick example is, imagine a spectrum of all the videos 
on YouTube laid out in one line, and on my left side over here, 
you have the calm Walter Cronkite, rational science side of 
YouTube, and the other side you have Crazy Town. You have UFOs, 
conspiracy theories, Alex Jones, crazy stuff.
    No matter where you start on YouTube, you could start in 
the calm section or you could start in crazy. If I want you to 
watch more, am I going to steer you that way or that way? I am 
always going to steer you towards Crazy Town. So imagine taking 
the ant colony of 2.1 billion humans and then just tilting it 
like that.
    Three examples of that per your kids example: 2 years ago 
on YouTube, if a teen girl watched a dieting video, it would 
autoplay anorexia videos, because those were more extreme. If 
you watched a 9/11 news video, it would recommend 9/11 
conspiracy theories. If you watched videos about the moon 
landing, it would recommend flat Earth conspiracy theories.
    Flat earth conspiracy theories were recommended hundreds of 
millions of times. This might sound just funny and, ``Oh, look 
at those people,'' but actually this is very serious. I have a 
researcher friend who studied this. If the flat Earth theory is 
true, it means not just that all of government is lying to you, 
but all of science is lying to you. So think about that for a 
second. That is like a meltdown of all of our rational 
epistemic understanding of the world.
    And, as you said, these things are autoplaying. So autoplay 
is just like [holds up cup]--it hacks your brain's stopping 
cue. So, as a magician, how do I know if I want you to stop? I 
put a stopping cue and your mind wakes up. It is like a right 
angle in a choice. If I stop drinking, if the water hits the 
bottom of the glass, I have to make a conscious choice, do I 
want more? But we can design it so the bowl never stops. We can 
just keep refilling the water, and you never stop. And that is 
how we basically have kept millions of kids addicted. In places 
like the Philippines, people watch YouTube for 10 hours a day. 
Ten hours a day.
    Ms. Castor. This has significant cost to the public, and 
that is one of the points I hope people will understand. As Dr. 
Donovan says, there is economy of misinformation now. These 
online platforms now are passing along--they are monetizing, 
making billions of dollars. Meanwhile, public health costs, law 
enforcement costs are adding up to the public, and we have a 
real responsibility to tackle this and level the playing field.
    Mr. Harris. And by not acting, we are subsidizing our 
societal self-destruction. I mean, we are subsidizing that 
right now. So yes, absolutely. Thank you so much.
    Ms. Schakowsky. I recognize Representative Burgess for 5 
minutes.
    Mr. Burgess. Thank you. Thanks for holding this hearing. I 
apologize. We have another Health hearing going on upstairs, so 
it is one of those days you got to toggle between important 
issues.
    Mr. Hurwitz, let me start by asking you--and this is a 
little bit off topic, but it is important. In 2018, United 
States District Court for Western Pennsylvania indicted seven 
Russians for conducting a physical cyber hacking operation in 
2016 against Western targets, including the United States Anti-
Doping Agency, in response to the revelation of Russia's state-
sponsored doping campaign. These hackers were representatives 
of the Russian military, the GRU. According to the indictment, 
the stolen information was publicized by the GRU as part of a 
related influence and disinformation campaign designed to 
undermine the legitimate interests of the victims. This 
information included personal medical information about United 
States athletes.
    So these GRU hackers used fictitious identities and fake 
social media accounts to research and probe victims and their 
computer networks. While the methods we are talking about today 
are largely in the context of perhaps deceiving voters or 
consumers, the harmful potential effects is actually quite 
large.
    So, in your testimony, you defined the dark pattern, the 
practice of using design to prompt desired, if not necessarily 
desirable, behavior. Can these dark patterns be used to surveil 
people and find ways to hack them in the service of broader 
state-sponsored operations?
    Mr. Hurwitz. Yes, absolutely, they can. And this goes to 
the broader context in which this discussion is happening. We 
are not only talking about consumer protection, we are talking 
about a fundamental architecture. The nature, as I said before, 
of trust online is different. All of those cues that we rely on 
for you to know who I am when you see me sitting here. We have 
gone through some vetting process to be sitting here. We have 
identities. We have telltale cues that you can rely on to know 
who I am and who you are. Those are different online, and we 
need to think about trust online differently.
    One example that I will highlight that goes to an industry-
based solution and, more important, the nature of how we need 
to think about these things differently, in the context of 
targeted advertising and political advertising in particular, 
how do we deal with targeted misinformation for political ads?
    Well, one approach which Facebook has been experimenting 
with is, instead of saying you can't speak, you can't 
advertise, if I target an ad at a group of speakers, Facebook 
will let someone else target an ad to that same group, or they 
have been experimenting with this.
    It is a different way of thinking about how we deal with 
establishing trust or responding to untrustworthy information. 
We need more creative thinking. We need more research about how 
do we establish trust in the online environment.
    Mr. Burgess. Well, thank you, and thank you for those 
observations.
    Ms. Bickert, if I ever doubted the power of Facebook, 3 
years ago that doubt was completely eliminated. One of your 
representatives actually offered to do a Facebook event in the 
district that I represent in northern Texas. And it was not a 
political--it was a business-to-business. It is how to 
facilitate and run your small business more efficiently. And 
wanted to do a program, and we selected a Tuesday morning. And 
I asked how big a venue should we get, thinking maybe 20, 30. 
And I was told 2,000, expect 2,000 people to show up. I am 
like, ``Two thousand people on a Tuesday morning for a 
business-to-business Facebook presentation? Are you nuts?''
    The place was standing room only, and it was the power of 
Facebook getting the word out there that this is what we are 
doing. And it was one of the most well-attended events I have 
ever been to as an elected representative. So, if I had ever 
doubted the power of Facebook, it was certainly brought home to 
me just exactly the kind of equity that you are able to wield.
    But recognizing that, do you have a sense of the type of 
information on your platforms that needs to be fact-checked, 
because you do have such an enormous amount of equity?
    Ms. Bickert. Yes, Congressman. And thank you for those 
words. We are concerned not just with misinformation--that is a 
concern, and that is why we developed the relationships we have 
now with more than 50 fact-checking organizations--but we are 
also concerned with abuse of any type. I am responsible for 
managing that, so whether it is terror propaganda, hate speech, 
threats of violence, child exploitation content, content that 
promotes eating disorders. Any of that violates our policies, 
and we go after it proactively to try to find it and remove it. 
That is what my team is.
    Mr. Burgess. Do you feel you have been successful?
    Ms. Bickert. I think we have had a lot of successes, and we 
are making huge strides. There is always more to do. We have 
begun publishing reports in the past year and a half or so, 
every 6 months, where we actually show across different abuse 
types how prevalent is this on Facebook from doing a sample, 
how much content did we find this quarter and remove, and how 
much did we find before anybody reported it to us?
    The numbers are trending in a good direction, in terms of 
how effective our enforcement measures are, and we hope that 
will continue to improve.
    Mr. Burgess. As policymakers, can we access that fund of 
data to, say, for example, get the number of antivaccine issues 
that have been propagated on your platform?
    Ms. Bickert. Congressman, I can follow up with you on the 
reports we have and any other information.
    Mr. Burgess. Thank you. I will yield back.
    Ms. Schakowsky. If I could just clarify that question. Is 
that information readily available to consumers, or no?
    Ms. Bickert. Chairwoman, the reports I just mentioned are 
publicly available, and we can follow up with any detailed 
requests as well.
    Ms. Schakowsky. I recognize Mr. Veasey for 5 minutes for 
questioning.
    Mr. Veasey. Thank you, Madam Chair. Outside of self-
reporting, what can be done to help educate communities that 
may be specifically targeted by, you know, all these different 
platforms?
    I was wondering, Mr. Harris, if you could address that 
specifically, just because I think that a great deal of my 
constituency, and even on the Republican side, I think, a great 
deal of their constituencies, are probably being targeted, 
based on things like race and income, religion, and what have 
you.
    And is there anything outside of self-reporting that can be 
done to just help educate people more?
    Mr. Harris. Yes, there are so many things here. And, as you 
mentioned, in the 2016 election Russia targeted African-
American populations. I think people don't realize--I think 
every time a campaign is discovered, how do we back-notify 
people, all of whom were affected, and say ``You were the 
target of an influence operation''?
    So right now, every single week, we hear reports of Saudi 
Arabia, Iran, Israel, China, Russia, all doing various 
different influence operations. Russia was recently going after 
U.S. veterans. Many veterans would probably say that is a 
conspiracy theory, right? But Facebook is the company that 
knows exactly who was affected, and they could actually back-
notify every time there is an influence operation, letting 
those communities know that this is what happened, and that 
they were targeted.
    We have to move from ``This is a conspiracy theory'' to 
``This is real.'' I have studied cult deprogramming for a 
while, and how do you wake people up from a cult when they 
don't know they are in? You have to show them essentially the 
techniques that were used on them to manipulate them. And every 
single time these operations happen, I think that has to be 
made visible to people.
    And just like we said, you know, we have laws and 
protections. We have a Pentagon to protect our physical 
borders. We don't have a Pentagon to protect our digital 
borders, and so we depend on however many people Facebook 
chooses to hire for those teams. One example of this, by the 
way, is that the City of Los Angeles spends 25 percent of its 
budget on security. Facebook spends 6 percent of its budget on 
security, so it is underspending the City of L.A. by about 4 
times.
    So, you know, you can just make some benchmarks and say, 
``Are they solving the problem?'' They have got 2.2 billion 
fake accounts, Facebook has, that they took down, fake 
accounts. So they have 2.7 billion real accounts, and then 
there were 2.2 billion fake accounts. And, you know, I am sure 
they got all of them I think would be the line to use here.
    Mr. Veasey. Ms. Bickert, you know, given the fact that it 
does seem like these foreign agents, these foreign actors, are 
targeting people specifically by their race, by their 
economics, by what region of the country that they live in, is 
Facebook doing anything to gather information or to look at how 
specific groups are being targeted?
    If African Americans are being targeted for political 
misinformation, if whites that live in rural America, if they 
are being targeted for political misinformation, if people 
based on their likes--like, if you could gatherinformation, if 
these foreign actors could gather information based on people 
based on things that they like.
    So let's say that you were white and you lived in rural 
America and you liked One America News and you like these other 
things and you may be more likely to believe in these sorts of 
conspiracy theories. Are you sure that some of the things that 
people are sharing on your platform, the likes and dislikes, 
aren't being used as part of that scheme as well?
    Could you answer both of those?
    Ms. Bickert. Yes, Congressman. Thank you for the question. 
There are, broadly speaking, two things that we do. One is 
trainings and tools to help people--especially those who might 
be most at risk--recognize ways to keep themselves safe from 
everything from hacking to scams and other abuse.
    Separately, whenever we remove influence operations under 
our, what we call this coordinated inauthentic behavior--we 
have removed more than 50 such networks in the past year--any 
time we do that, we are very public about it, because we want 
to expose exactly what we are seeing. And we will even include 
examples in our post saying, here is a network, it was in this 
country, it was targeting people in this other country, here 
are examples of the types of posts that they were putting in 
their pages. We think the more we can shine a light on this, 
the more we will be able to stop it.
    Mr. Veasey. Before my time expires, but if people are being 
scientifically--if their likes, and Dr. Burgess' district being 
specifically targeted because of certain television or news 
programming that they like, if they are African Americans that 
are being specifically targeted because Russian actors may 
think that they lean a certain way in politics, don't you think 
that information ought to be analyzed more closely instead of 
relying on--instead of just leaving it up to the user to be 
able to figure all of this out? Especially when people work odd 
hours and may only have time to digest what they immediately 
read, and they may not have an opportunity to go back and 
analyze something so deeply as far as what you are saying.
    Ms. Bickert. Congressman, I appreciate that. And I will 
say, attribution is complicated, and understanding the intent 
behind some of these operations is complicated. We think the 
best way to do that is to make them public.
    And we don't just do this ourselves. We actually work hand-
in-hand with academics and security firms who are studying 
these types of things, so that they can see. And sometimes we 
will say as we take down a network, ``We have done this in 
collaboration or conversation with,'' and we will name the 
group.
    So there are groups who can look at this and together 
hopefully shine light on who the actors are and why they are 
doing what they are doing.
    Mr. Veasey. Thank you. I yield back.
    Ms. Schakowsky. I recognize Mr. Latta for 5 minutes.
    Mr. Latta. Well, thank you, Madam Chair, and thanks very 
much for holding this very important hearing today. And thank 
you to our witnesses for appearing before us. And it is really 
important for Americans to get this information.
    In 2018, the experts out there estimated that criminals 
were successful in stealing over $37 billion from our older 
Americans through different scams through the internet, 
identity theft, friends, family abuse and impostor schemes. And 
last year in my district, I had the Federal Trade Commission 
and the IRS out for a senior event, so that the seniors could 
be educated on the threat of these scams and how to recognize, 
avoid, ward off, and how to recover from them.
    Congress recognized that many of these scams were carried 
out through the use of manipulative and illegal robocalls. To 
combat these scams, I introduced the STOP Robocalls Act, which 
was recently signed into law as part of the tray stack, which I 
am very glad the President signed over the Christmas holiday.
    While I am glad that we were able to get this done, I 
continue to be concerned with the ability of scammers to evolve 
and adapt to changes in the law by utilizing new technologies 
and techniques like deep- and cheapfakes.
    And, Ms. Bickert, I don't want to pick on you, and I truly 
appreciate you being here today, especially since you are a 
little under the weather. And I also appreciated reading your 
testimony last night. I found it very interesting and 
enlightening.
    I have several questions. As more and more seniors are 
going online and joining Facebook to keep in contact with their 
family, friends, and neighbors, in your testimony, you walk us 
through Facebook's efforts to recognize misinformation and what 
the company is doing to combat malicious actors using 
manipulated media. Is Facebook doing anything specifically to 
help protect seniors from being targeted on the platform, or 
educating them on how to recognize fake accounts or scams?
    Ms. Bickert. Thank you for the question. We are, indeed. 
And that includes both in-person trainings for seniors, which 
we have done and will continue to do. We also have a guide that 
can be more broadly distributed that is publicly available that 
is a guide for seniors on the best ways to keep themselves 
safe.
    But I want to say more broadly, and as somebody who was a 
Federal criminal prosecutor for 11 years, looking at that sort 
of behavior, this is something we take seriously across the 
board. We don't want anybody to be using Facebook to scam 
somebody else, and we look proactively for that sort of 
behavior and remove it.
    Mr. Latta. Just a quick followup. I think it is really 
important because, you know, from what we have learned in a lot 
of times is that seniors don't want to report things, because 
they are afraid that, boy, you know, ``I have been taken. I 
don't want to tell my relatives, I don't want to tell my 
friends,'' because they are afraid of losing some of what they 
might have, and not just on the money side, but how they can 
get out there.
    And so, I think it is really important that we always think 
about our seniors, and just to follow up, because at the 
workshop that we had in the District last year, the FTC stated 
that one of the best ways to combat scams is to educate the 
individuals on how to recognize the illegal behavior so they 
can turn that into educating their friends and neighbors.
    In addition to your private-sector partnerships, would 
Facebook be willing to partner with agencies like the FTC to 
make sure the public is informed about scammers operating on 
their platform?
    Ms. Bickert. Congressman, I am very happy to follow up on 
that. We think it is important for people to understand the 
tools that are available to keep themselves safe online.
    Mr. Latta. Ms. Donovan.
    Dr. Donovan. Yes, one of the things that we should also 
consider is the way in which people are targeted by age for--I 
have looked at reverse mortgage scams, retirement funding 
scams, fake healthcare supplements. You know, when you do 
retire, it becomes very confusing. You are looking for 
information. And if you are looking primarily on Facebook and 
then posting about it, you might be retargeted by the 
advertising system itself.
    And so, even when you are not information-seeking, 
Facebook's algorithms and advertising are giving other third 
parties information, and then serving advertising to seniors. 
And so it is a persistent problem.
    Mr. Latta. Thank you. Again, Ms. Bickert, if I can just 
follow up quickly with my remaining 30 seconds. Many of the 
scammers look for ways to get around Facebook's policies, 
including through the development and refinement of new 
technologies and techniques.
    Is Facebook dedicating the resources and exploring ways to 
proactively combat scams instead of reacting after the fact?
    Ms. Bickert. Yes, Congressman, we are. I have been 
overseeing content policies at Facebook for about 7 years now, 
and in that time I would say that we have gone from being 
primarily reactive in the way that we enforce our policies to 
now primarily proactive. We are really going after abusive 
content and trying to find it. We grade ourselves based on how 
much we are finding before people report it to us, and we are 
now publishing reports to that effect.
    Mr. Latta. Thank you very much.
    Madam Chair, my time is expired, and I yield back.
    Ms. Schakowsky. The gentleman yields back.
    And I now recognize Mr. O'Halleran for 5 minutes.
    Mr. O'Halleran. I want to thank the chairwoman for holding 
this important and timely meeting here today--hearing. I echo 
the concerns of my colleagues. The types of deceptive online 
practices that have been discussed today are deeply troubling. 
I have continually stressed that a top priority for Congress 
should be securing our U.S. elections.
    We could see dangerous consequences if the right tools are 
not in place to prevent the spread of misinformation online. 
This is a national security concern. As a former law 
enforcement officer, I understand that laws can be meaningless 
if they are not enforced. I look forward to hearing more from 
our witnesses about the FTC's capabilities and resources to 
combat these deceptive online practices.
    Dr. Donovan, in your testimony you say that regulatory 
guardrails are needed to protect users from being misled 
online. I share your concerns about deception and manipulation 
online, including the rise in use of the dark patterns, 
deepfakes and other kinds of bad practices that can harm 
consumers.
    Can you explain in more detail what sort of regulatory 
guardrails are necessary to prevent these instances?
    Dr. Donovan. I will go into one very briefly. One of the 
big questions is, if I post something online that is not an 
advertisement, you know, I am just trying to inform my known 
networks. The problem isn't necessarily always that there is a 
piece of fake content out there. The real problem is the scale, 
being able to reach millions.
    In 2010, 2011, we lauded that as a virtue of platforms. It 
really emboldened many of our important social movements and 
raised some incredibly important issues. But that wasn't false 
information. It wasn't meant to deceive people. It wasn't meant 
to siphon money out of other groups. At that time too, you 
weren't really able to scale donations. It was much harder to 
create networks of fake accounts and pretend to be an entire 
constituency.
    And so, when I talk about regulatory guardrails, we have to 
think about distribution differently than we think about the 
content. And then we can also assuage some of the fears that we 
have about freedom of expression by looking at what are the 
mechanisms by which people can break out of their known 
networks? Is it advertising? Is it the use of fake accounts? 
How are people going viral? How are posts going viral, 
information going viral?
    The other thing I would like to know from the government 
perspective is, does the FTC have enough insight into platforms 
to monitor that, to understand that? And if they don't, if they 
don't know why and how tens of millions of dollars are being 
siphoned out of Trump's campaign, then that is also another 
problem, and we have to think about what does transparency, 
what does auditing look like in a very meaningful way.
    Mr. O'Halleran. Doctor, do you believe, then, that the FTC 
has the adequate authority under Section 5 of the FTC Act to 
take action against individuals and companies engaged in 
deceptive behavior practices online? And I do want to point out 
a Wall Street Journal report that said of the millions of 
dollars--200-and-some million dollars--of fines, that they have 
only collected about $7,000 since 2015.
    Dr. Donovan. Wow. I think that you do have to look a lot 
closer at what the FTC has access to and how they can make that 
information actionable. For example, proving that there is 
substantial injury, if only one group has access to the known 
cost or knows the enormity of a scam, then we have to be able 
to expedite the transfer of data and the investigation in such 
a way that we are not relying on journalists or researchers or 
civil society organizations to investigate. I think that the 
investigatory powers of the FTC have to also include assessing 
substantial injuries.
    Mr. O'Halleran. Thank you, Doctor.
    Mr. Harris, do you believe the agency has enough resources 
to responsibly, swiftly, and appropriately address the issues? 
And I just want to point out that we flat-line them all the 
time. And on the other side, industry continues to expand at 
exponential rates.
    Mr. Harris. That is the issue that you are pointing to, is 
that the problem-creating aspects of the technology industry, 
because they operate at exponential scales, create exponential 
issues, harms, problems, scams, et cetera. And so how do you, 
you know, have a small body reach such large capacities? This 
is why I am thinking about how can we have a digital update for 
each of our different agencies who already have jurisdiction 
over, whether it is public health or children or scams or 
deception, and just have them ask the questions that then are 
forced upon the technology companies to use their resources to 
calculate, report back, set the goals for what they are going 
to do in the next quarter.
    Mr. O'Halleran. Thank you, Mr. Harris.
    And I yield.
    Ms. Schakowsky. The Chair now recognizes Mr. Carter for 5 
minutes.
    Mr. Carter. Thank you, Madam Chair.
    And thank all of you for being here. This is extremely 
important, and extremely important to all of our citizens.
    I want to start by saying that, you know, when we talk 
about deepfake and cheapfake, to me, that is somewhat black and 
white. I can understand it. But, Mr. Hurwitz, when we talk 
about dark patterns, I think that is more gray in my mind. And 
I will just give you an example.
    I was a retailer for many years. And I grew up in the 
South, OK? We had a grocery store chain, some of you may be 
familiar with it: Piggly Wiggly. Now, I always heard that the 
way they got their name--and I tried to fact-check it, but I 
couldn't find it, but anyway--I always heard the way they got 
their name is they arranged their stores to when you went in 
you had to kind of wiggle all the way around before you could 
get back out so that you would buy more things. It was like a 
pig wiggling through the farmyard or something. And they came 
up with Piggly Wiggly. Well, that is marketing.
    And, you know, another example is all of us go to the 
grocery store. When we are at the grocery store and you are in 
the checkout line, you got all these things up there that they 
are trying to get you to buy. They are not necessarily--you 
could argue that they are impulse items. But then again, you 
could also make the argument that when you get home you say, 
``Geez, I wish I had gotten that at the grocery store. I wish I 
would have gotten these batteries or Band-Aids'' or whatever.
    How do you differentiate between what is harmful and what 
is beneficial?
    Mr. Hurwitz. A great question, because it is gray. And, as 
I said previously, dark patterns, the term itself is a dark 
pattern intended to make us think about this as dark. There are 
some clear categories, clear lies, clear false statements, 
where we are talking about classic deception. That is pretty 
straightforward.
    But when we are talking about more behavioral nudges, it 
becomes much more difficult. Academics have studied nudges for 
decades at this point, and it is hard to predict when they are 
going to be effective, when they are not going to be.
    In the FTC context, the deception standard has a 
materiality requirement. So there needs to be some 
demonstration that a practice is material to the consumer harm, 
and that is a good sort of framework. If we don't have some 
sort of demonstrable harm requirement and causal connection 
there--I am a law professor, causation is a basic element of 
any legal claim. If you don't have some ability to tie the act 
to the harm, you are in dark waters for due process.
    Mr. Carter. So do you think we should be instructing the 
FTC to conduct research on this as to what is going on here?
    Mr. Hurwitz. I think more information is good information. 
The FTC is conducting some hearings already. I think greater 
investigation is very powerful, both so that the FTC 
understands what they should be doing so they can use this 
information to establish rules. Where materiality is difficult 
to establish, the FTC can issue a rule, go through a rulemaking 
process which makes it easier to substantiate an enforcement 
action subsequently.
    And even to respond, in part, to a previous question, to 
the extent that one of the FTC's core powers, even if it 
doesn't lack this as an enforcement authority, is to report to 
this body and say, ``Look, we are seeing this practice. It is 
problematic. We don't have the authority. Can you do something 
about it?'' And perhaps this body will act and give it power, 
perhaps this body will take direct action, or perhaps the 
platforms and other entities will say, ``Oh, wow, the jig's up, 
we should change our practices before Congress does something 
that could be even more detrimental to us.''
    Mr. Carter. Right. Mr. Harris, did you have something?
    Mr. Harris. Yes. I have studied this topic for also about a 
decade. So you asked what is different about this. You have got 
the pig going through the thing. You have got the supermarket 
aisle. You have got the last-minute of, sort of last-minute-
purchase items. There are two distinct things that are 
different.
    The first is that this is infrastructure we live by. When 
you talk about children waking up in the morning and you have 
autoplay, that is not like the supermarket where I occasionally 
go there and I just made some purchases and I am at the very 
end of it, and that is the one moment, the one little 
microsituation of deception or marketing, which is OK.
    In this case, we have children who are, like, spending 10 
hours a day. So imagine a supermarket, you are spending 10 
hours a day, and you wake up in that supermarket. And so that 
is the degree of intimacy and sort of scope in our lives. That 
is the first thing.
    The second thing is the degree of asymmetry between the 
persuader and the persuadee. So, in this case, you have got 
someone who knows a little bit more about marketing who is 
arranging the shelf space so that the things in the top are at 
eye level versus at bottom level. That is one very small amount 
of asymmetry.
    But in the case of technology, we have a supercomputer 
pointed at your brain, meaning like the Facebook news feed 
sitting there, and using the vast resources of 2.7 billion 
people's behavior to calculate the perfect thing to show you 
next and to not be discriminant about whether it is good for 
you, whether it is true, whether it is trustworthy, whether it 
is credible. And so, it knows more about your weaknesses than 
you know about yourself, and the degree of asymmetry is far 
beyond anything we have experienced.
    Mr. Carter. And you want the Federal Government to control 
that?
    Mr. Harris. I think we have to ask questions about--when 
there is that degree of asymmetry, about intimate aspects of 
your weaknesses, and its business model is to exploit that 
asymmetry. It is as if a psychotherapist who knows everything 
about your weaknesses uses it with a for-profit advertising 
business model.
    Mr. Hurwitz. The challenge is that can also go the other 
way. It can used to strengthen.
    Mr. Carter. Yes, yes.
    Mr. Hurwitz. Mr. Harris used the example earlier of what if 
autoplay is shifting us towards conspiracy theories. OK, that 
is a dark pattern, that is bad. What if, instead, it was using 
us to shift us the other way, to the light, to greater 
education. If we say autoplay is bad, then we are taking both 
of those options off the table.
    This can be used for good, and the question that you asked 
about how do we differentiate between good uses and bad, that 
is the question.
    Mr. Carter. Thank you, Madam Chair. I yield back.
    Ms. Schakowsky. Mr. Cardenas is recognized for 5 minutes.
    Mr. Cardenas. Thank you, Madam Chair, and thank you so much 
for holding this very important hearing that, unfortunately, I 
think most Americans don't understand how important this is to 
every single one of us, especially to our children and future 
generations.
    There is an app, TikTok, question mark. Is it a deepfake 
maker? Five days ago, TechCrunch reported that ByteDance, the 
parent company of the popular video-sharing app TikTok, may 
have secretly built a deepfake maker. Although there is no 
indication that TikTok intends to actually introduce this 
feature, the prospect of deepfake technology being made 
available on such a massive scale and on a platform that is so 
popular with kids raises a number of troubling questions.
    So my question to you, Mr. Harris, is in your testimony you 
discuss at length the multitude of ways that children are 
harmed by new technology. Can you talk about why this news may 
be concerning?
    Mr. Harris. Yes. Thank you for the question.
    So deepfakes is a really complex issue. I think if you look 
at how other governments are responding to this--I don't mean 
to look at China for legal guidance, but they see this as so 
threatening to their society, the fabric of truth and trust in 
their society, that if you post a deepfake without labeling it 
clearly as a deepfake, you can actually go to jail.
    So they are not saying if you post a deepfake you go to 
jail. They are saying if you post it without labeling it, you 
go to jail. You can imagine a world where Facebook says, ``If 
you post a deepfake without labeling it, we actually maybe 
suspend your account for 24 hours, so that you sort of feel--
and we label your account to other people who see your 
account----''
    Mr. Cardenas. Hold on a second. My colleague on the other 
side of the aisle just warned, quote, ``And you want to have 
the government control this?'' You just gave an example of 
where private industry could, in fact, create deterrents----
    Mr. Harris. That is right.
    Mr. Cardenas [continuing]. To bad behavior, not the 
government, but actual industry. OK, go ahead.
    Mr. Harris. So that is right. And so they can create--and 
that is the point, is instead of using these AI Whac-a-Mole 
approaches where the engineers at Facebook--how many engineers 
at Facebook speak the 22 languages of India where there was an 
election last year? They are controlling the information 
infrastructure not just for this country, but for every 
country, and they don't speak the languages of the countries 
that they operate in, and they are automating that.
    And, instead of trying to use AI where they are just 
missing everything going by--yes, they have made many 
investments, we should celebrate that, there are people working 
very hard, it is much better than it was before--but they have 
created a digital Frankenstein where there is far more content, 
advertising, variations of texts, lies, et cetera, than they 
have the capacity to deal with.
    And so you can't create problems way beyond the scope of 
your ability to address them. It would be like creating nuclear 
power plants everywhere with the risk of meltdown, without 
actually having a plan for security.
    Mr. Cardenas. Now, getting back to your example where 
industry could, in fact, for example, Facebook could say ``We 
are going to suspend your account for 24 hours'' or something 
like that, with all due respect, in that example, Facebook 
might lose a little bit of revenue, as well as the person that 
they are trying to deter from bad action is likely going to 
lose revenue as well, correct?
    Mr. Harris. That is correct. But maybe that is an 
acceptable cost, given we are talking about the total meltdown 
of trust.
    Mr. Cardenas. Yes, but maybe it is acceptable when you look 
at it intellectually and honestly, but when you look at it from 
whether or not private industry is going to take it upon 
themselves to actually impact their shareholders' revenue, that 
is where government has a place and space to get involved and 
say, proper actions and reactions need to be put in place so 
that people can understand that you can't and you shouldn't 
just look at this from a profit center motive.
    Mr. Harris. That is right.
    Mr. Cardenas. Because in this world sometimes the negative 
actions are more profitable for somebody out there than 
positive, good actions. And that is one of the things that is 
unfortunate.
    And you talk about languages around the world, but the 
number one target, in my opinion, for these bad actions for 
both financial gain and also the tearing down of the fabric of 
the democracy of the greatest nation on the planet, the United 
States, is the United States, we are the biggest target for 
various reasons.
    Two main reasons are because we are supposed to be the 
shining light on the hill for the rest of the world for what a 
good democracy should be like. And secondly, we are by far and 
away the largest economy, the biggest consumer group of folks 
on the planet.
    So, therefore, there is a motive for people to focus on 
profit and focus on their negative, bad intentions against our 
interests, the interests of the American people. Is that 
accurate?
    Mr. Harris. That is exactly right. And this is a national 
security--I see this as a long-term--I mean, the polarization 
dynamics are accelerating towards civil war-level things, 
hashtag civilwariscoming.
    Our colleague Renee DiResta says, ``If you can make it 
trend, you can make it true.'' When you are planting these 
suggestions and getting people to even think those thoughts 
because you can manipulate the architecture, we are profiting, 
as I said, we are subsidizing our own self-destruction if the 
government doesn't say that these things can't just be 
profitable.
    Mr. Cardenas. Thank you to the witnesses. And thank you, 
Mr. Harris. I have run out of time. I wish I had more time. 
Thank you.
    Ms. Schakowsky. The gentleman yields back.
    And now I recognize Mr. Soto for 5 minutes.
    Mr. Soto. Thank you, Madam Chair.
    It has been my experience that a lie seems to be able to 
travel faster on the internet than the speed of light, while 
the truth always goes at such a snail's pace. I suppose that is 
because of the algorithms we see.
    I want to start with deepfakes and cheap fakes. We know 
through New York Times v. Sullivan that defamation of public 
figures requires actual malice. And some of these just appear 
to be malicious on their face.
    I appreciate the labeling, Ms. Bickert, that Facebook is 
doing now. That is something that we actually were pondering in 
our office as well. But why wouldn't Facebook simply just take 
down the fake Pelosi video?
    Ms. Bickert. Thank you for the question.
    Our approach is to give people more information so that, if 
something is going to be in the public discourse, they will 
know how to assess it, how to contextualize it. That is why we 
work with the fact checkers.
    I will say that in the past 6 months it is feedback from 
academics and civil society groups that has led us to come up 
with stronger warning screens.
    Mr. Soto. Would that be labeled under your current policy 
now as false, that video?
    Ms. Bickert. I am sorry, which video?
    Mr. Soto. Would the fake Pelosi video be labeled as false 
under your new policy?
    Ms. Bickert. Yes. And it was labeled false. At the time we 
did--we think we could have gotten that to fact checkers 
faster, and we think the label that we put on it could have 
been more clear. We now have the label for something that has 
been rated false. You have to click through it so it actually 
obscures the image. And it says ``false information.'' And it 
says ``This has been rated false by fact checkers.'' You have 
to click through it, and you see information from the fact-
checking source.
    Mr. Soto. Thanks.
    In 2016 there was a fake Trump rally put together by 
Russians in Florida, complete with a Hillary Clinton in a 
prison and a fake Bill Clinton.
    Could a fake rally be created today through Facebook in the 
United States by the Russians under existing technology?
    Ms. Bickert. The network that created that was fake and 
inauthentic, and we removed it. We were slow to find it.
    I think our enforcement has gotten a lot better. And, as a 
data point for that, in 2016 we removed one such network. This 
past year, we removed more than 50 networks. Now, that is a 
global number all over the world. But these are organizations 
that are using networks of accounts--some fake, some real--in 
an attempt to obscure who they are or to push false 
information.
    Mr. Soto. So could it happen again right now?
    Ms. Bickert. Our enforcement is not perfect. However, we 
have made huge strides, and that is shown by the dramatic 
increase in the number of networks that we have removed.
    And I will say that we do it not just by ourselves, but we 
work with security firms and academics who are studying this to 
make sure we are staying on top of it.
    Mr. Soto. What do you think Facebook's duty is, as well as 
other social media platforms, to prevent the spread of lies 
across the internet?
    Ms. Bickert. I am sorry. Could you repeat that?
    Mr. Soto. What you do think Facebook and other social 
platforms' duty is to prevent the spread of lies across the 
internet?
    Ms. Bickert. I can speak for Facebook. We think it is 
important for people to be able to connect safely and with 
authentic information. And my team is responsible for both.
    So there is our approach to misinformation where we try to 
get people--label contented as false and get them accurate 
information. And then there is everything we also do to remove 
abusive content that violates our standards.
    Mr. Soto. Thank you, Ms. Bickert.
    Dr. Donovan, I saw you reacting to the fake Trump rally 
aspect. Could that still happen now under existing safeguards 
in social media?
    Dr. Donovan. Yes. And the reason why it can still happen is 
because the platform's openness is now turning into a bit of a 
vulnerability for the rest of society.
    So what is dangerous about events like that is the kind of 
research we do, we are often trying to understand, well, what 
is happening online? And what happens when the wires--the 
interaction between the wires and the weed? Like when people 
start to be mobilized, start to show up places, that to us is 
one order of magnitude much more dangerous.
    Mr. Soto. What do you think we should be doing as 
government to help prevent something like that?
    Dr. Donovan. There are ways in which I think, when people 
are using particularly events features, group features, there 
has to be added transparency about who, what, when, where those 
events are being organized by.
    And there have been instances in Facebook very recently 
where they have added transparency pages, but it is not always 
clear to the user who is behind what page and for what reason 
they are launching a protest.
    What is dangerous, though, is that actual constituents show 
up, real people show up as fodder for this. And so we have to 
be really careful that they don't stage different parties like 
they did in Texas across the street from one another at the 
same time. And so we don't want to have manipulation that 
creates this serious problem for law enforcement, as well as 
others in the area.
    Mr. Soto. Thanks. My time has expired.
    Ms. Schakowsky. I now recognize Congresswoman Matsui for 5 
minutes.
    Ms. Matsui. Thank you very much, Madam Chair. And I really 
appreciate the witnesses here today, especially on this really 
important issue.
    I introduced the Blockchain Promotion Act with Congressman 
Guthrie to direct the Department of Commerce to convene a 
working group of stakeholders to develop a consensus-based 
definition of blockchain. Currently there is no common 
definition, which has hindered its deployment.
    Blockchain technology could have interesting applications 
in the communication space, including new ways of identity 
verification. This technology is unique in that it can help 
distinguish between credible and noncredible news sources in a 
decentralized fashion, rather than relying on one company or 
organization to serve as a sole gatekeeper.
    I have a lot of questions. I would like succinct answers to 
this.
    Ms. Donovan, do you see value in promoting impartial, 
decentralized methods of identity verification as a tool to 
combat the spread of misinformation?
    Dr. Donovan. I think in limited cases, yes, especially 
around purchasing of advertising, which is allowing you to 
break out of your known networks and to reach other people, 
especially if those advertising features do allow you to target 
very specific groups.
    I am interested in learning more about this consensus on 
definition, because I also think it might help us understand 
what is a social media company, what are their--how do we 
define their broadcast mechanisms, how do we define them 
related to the media, media company, as well as the other kinds 
of products that they build. And I think it would also get us a 
lot further in understanding what it is we say when we say 
deepfakes or even AI.
    Ms. Matsui. OK. The European Commission has recently 
announced that it will be supporting research to advance 
blockchain technology to support a more accurate online news 
environment.
    The entire panel, just a yes or no is sufficient.
    Do you believe the U.S. should be keeping pace with Europe 
in this space? Yes or no?
    As far as blockchain, do you think that the European 
Commission is supporting research to advance blockchain 
technology to support a more accurate online news development? 
Do you believe that the U.S. should be keeping pace with Europe 
regarding this?
    Ms. Bickert. This is not my area.
    Ms. Matsui. OK. Dr. Donovan, I probably would say----
    Dr. Donovan. Yes, more research could help us understand 
this better.
    Ms. Matsui. Mr. Hurwitz, yes or no?
    Mr. Hurwitz. Around the world, many are outpacing us in 
blockchain.
    Ms. Matsui. OK.
    Mr. Harris?
    Mr. Harris. It is not my area, but I know that China is 
working on a decentralized currency and could basically get all 
of the countries in which it is indebting them to their 
infrastructure with these huge Belt and Road plans. If they 
switch the global currency to their decentralized currency, 
that is a major national security threat and would change the 
entire world order. I think much more work has to be done in 
the U.S. to protect against China gaining currency advantage 
and changing the world of reserve currency.
    Ms. Matsui. Thank you.
    It is an undisputed fact, reaffirmed by America's 
intelligence agencies, that Russia interfered in our 2016 and 
2018 elections through targeted and prolonged online campaigns. 
We know that Russia is ramping up for 2020, and the American 
voters will once again be exposed to new lies, falsehoods, and 
misinformation designed to sow division in our democratic 
process.
    While I was glad to see the recent funding bill included 
$425 million in election security grants, this is only part of 
a much larger solution. To protect the most fundamental 
function of our democracy, social media companies need to take 
clear, forceful action against foreign attempts to interfere 
with our elections.
    Mr. Harris, how have the various election interference 
strategies evolved from the 2016 and 2018 election cycles?
    Mr. Harris. You know, I am actually not an expert on 
exactly what Russia is doing now. What I will say is I think 
that we need a mass public awareness campaign to inoculate the 
public. Think of it as like a cultural vaccine.
    And there is actually precedent in the United States for 
this. So, back in the 1940s, we had the Committee for National 
Morale and the Institute for Propaganda Analysis that actually 
did a domestic awareness campaign about the threat of fascist 
propaganda.
    You have probably seen the videos from--they are black and 
white--from 1947. It was called ``Don't Be a Sucker.'' And they 
had us looking at a guy spouting fascist propaganda, someone 
starting to nod, and then the guy taps him on the shoulder and 
says, ``Now, son, that is fascist propaganda, and here is how 
to spot it.''
    We actually saw this as a deep threat, a national security 
threat to our country. We could have another mass public 
awareness campaign now, and we could have the help of the 
technology companies to collectively use their distribution to 
distribute that inoculation campaign so everybody actually knew 
the threat of the problem.
    Ms. Matsui. Does the rest of the panel agree with Mr. 
Harris on this, to have this public awareness campaign?
    Mr. Hurwitz. Probably. I will just note that it runs the 
risk of being called a dark pattern if the platforms are 
starting to label certain content in certain ways. So there is 
a crosscurrent for our discussion to note there.
    Ms. Matsui. OK. Well, we don't come to any solutions now, 
but I appreciate it. And I have run out of time. Thank you very 
much.
    Ms. Bickert. Congresswoman, I would just point to the ads 
library that we have put in place over the past few years, 
which has really brought an unprecedented level of openness to 
political advertising. So people can now see who is behind an 
ad, who paid for it, and we verify the identity of those 
advertisers.
    Ms. Matsui. I think it is difficult for most people out 
there to really do that, unless it is right in front of them. 
But I am glad that that is happening. But I think we should 
have much more exposure about this.
    Thank you.
    Ms. Schakowsky. I now recognize Mr. McNerney for 5 minutes.
    Mr. McNerney. I thank the chair.
    And I thank the witnesses. Your testimony has been helpful, 
and I appreciate it. But I have to say, with big power comes 
big responsibility, and I am disappointed, in my opinion, that 
Facebook hasn't really stepped up to that responsibility.
    Back in June, I sent a letter to Mr. Zuckerberg, and I was 
joined by nearly all the Democrats on the committee. In this 
letter we noted that we are concerned about the potential 
conflict of interest between Facebook's bottom line and 
addressing misinformation on its platform. Six months later, I 
remain very concerned that Facebook is putting its bottom line 
ahead of addressing misinformation.
    Ms. Bickert, Facebook's content monetization policy states 
that content that depicts or discusses subjects in the 
following categories may face reduced or restricted 
monetization, and misinformation is included on the list. It is 
troubling that your policy doesn't simply ban misinformation.
    Do you think there are cases where misinformation can and 
should be monetized? Please answer yes or no.
    Ms. Bickert. Congressman, no. If we see somebody that is 
intentionally sharing misinformation, and we make this clear in 
our policies, they will lose the ability to monetize.
    Mr. McNerney. OK. Well, that sounds different than what is 
in your company's stated policy.
    But the response I received from Facebook to my letter 
failed to answer many of my questions. For example, I asked the 
following question that was left unanswered, and I would like 
to give you a chance to answer it today. How many project 
managers does Facebook employ whose full-time job it is to 
address misinformation?
    Ms. Bickert. Congressman, I don't have a number of PMs. I 
can tell you that across my team, our engineering teams, and 
our content review teams, this is something that is a priority. 
Building that network of the relationships with more than 50 
fact-checking organizations is something that has taken the 
efforts of a number of teams across the company.
    Mr. McNerney. Does that include software engineers?
    Ms. Bickert. It does, because there for any of these 
programs you need to have an infrastructure that can help 
recognize when something might be misinformation, allow people 
to report when something might be misinformation, get things 
over to the fact-checking organization.
    Mr. McNerney. OK. So I am going to ask you to provide that 
information, how many full-time employees, including software 
engineers who were employed in that, to identify 
misinformation.
    Ms. Bickert. We are happy to try to follow up and answer.
    Mr. McNerney. Another question that was left unanswered is, 
on average, from the time a content is posted on Facebook's 
platform, how long does it take for Facebook to flag suspicious 
content to third-party fact checkers, third-party fact checkers 
to review the content, and Facebook to take remedial action 
once the content--once the review is completed?
    Ms. Bickert. Congressman, the answer depends. This could 
happen very quickly. We actually allow fact-checking 
organizations to proactively rate content they see on Facebook. 
So they----
    Mr. McNerney. You think that would be fast enough to keep 
deepfakes from going viral or other misinformation from going 
viral?
    Ms. Bickert. If they rate something proactively then it 
happens instantly. And we also use technology and use the 
reporting to flag content to them, and we often see that they 
will rate it very quickly.
    Mr. McNerney. Well, moving on, I am very concerned that 
Facebook is not prepared to address misinformation on its 
platform in advance of this year's election. Will you commit to 
having a third-party audit conducted by June 1 of Facebook's 
practices for combating the spread of disinformation on its 
platform and for the results of this audit to be made available 
to the public?
    Ms. Bickert. Congressman, we are very happy to answer any 
questions about how we do what we do. We think transparency is 
important. And we are happy to follow up with any suggestions 
that you have.
    Mr. McNerney. I would request a third-party audit--I am not 
talking about the civil rights audit--an independent third-
party audit be conducted at Facebook by June 1.
    Ms. Bickert. Congressman, again, we are very transparent 
about what our policies and practices are, and we are happy to 
follow up with any specific suggestions.
    Mr. McNerney. Mr. Harris.
    Mr. Harris. I was going to say, their third-party fact-
checking services are massively understaffed, underfunded, and 
a lot of the people are dropping out of the program. And the 
amount of information flowing through that channel is far 
beyond their capacity to respond.
    More or less, fact checking isn't even really the relevant 
issue. I think if you look at the clearest evidence of this, is 
Facebook's own employees wrote a letter to Mark Zuckerberg 
saying, ``You are undermining our election integrity efforts 
with your current political ads policy.''
    That says it all to me. That letter was leaked to The New 
York Times about a month ago, I think that those people, 
because they are closest to the problem, they do the research 
queries, they understand how bad the issue is.
    We are on the outside. We don't actually know. It is almost 
like they are Exxon, but they also own the satellites that 
would show us how much pollution there is. So we don't actually 
know on the outside. So all we can do is trust people like that 
on the inside that are saying this is far less than what we 
would like to do. And they still have not updated their policy.
    Mr. McNerney. Thank you. I yield back.
    Ms. Schakowsky. I recognize Congresswoman Dingell for 5 
minutes for questions.
    Mrs. Dingell. Thank you, Madam Chair.
    And thank you all of you for being here today. This is a 
subject that really matters to me, like it does to all of us. 
But in the past we have treated what little protections people 
have online as something that is separate from those we have in 
our day-to-day lives offline. But the line between what happens 
online and offline is virtually nonexistent. Gone are the days 
when we can separate one from the other.
    Millions of Americans have been affected by data breaches 
and privacy abuses. The numbers are so large that you can't 
even wrap your head around them. I mean, I have talked to 
Members here and they don't even at times understand what has 
happened or how people have collected data about us.
    The resources to help folks protect themselves after the 
fact are desperately needed. But what is really happening is 
that the cost of failure to protect sensitive information is 
being pushed on millions of people who are being breached and 
not trying to do anything. It is a market externality.
    And that is where the government, I believe, must step in. 
You go to the pharmacy to fill a prescription, you assume that 
the medicine you are going to get is going to be safe, it is 
not going to kill you. If you go outside, you assume that the 
air you breathe--you assume--is going to be safe, or we are 
trying to make it that way.
    And that is because we have laws that protect people from 
have a long list of known market externalities and the burden 
isn't placed on their ability to find out is the medicine you 
are taking OK, safe, and is the air you are breathing clean. We 
are still working on that, but it is one we have identified. It 
shouldn't be any different for market externalities that are 
digital.
    Ms. Bickert, I will admit I have sent a letter to Facebook 
today which has a lot of questions that didn't lend themselves 
to answer here, so I hope that they will be answered.
    But I would like to get yes-or-no answers from the panel on 
the following questions. And I am going start this way, with 
Mr. Harris, because we always start with you, Ms. Bickert, and 
we will give you a little--and thank you for being here even 
though you are sick.
    Do you believe that the selling of real-time cell phone 
location without users' consent constitutes a market 
externality?
    Mr. Harris?
    Mr. Harris. I don't know with that specific one, but the 
entire surveillance capitalism system produces vast harms that 
are all on the balance sheets of societies, whether that is the 
mental health of children, the manipulation of elections, the 
breakdown of polarization.
    Mrs. Dingell. But it is a market externality.
    Mr. Harris. Absolutely, all market externality.
    Mrs. Dingell. OK, let's go down.
    Mr. Hurwitz?
    Mr. Hurwitz. Based on the economic definition of an 
externality, no, it is not. However, it can be problematic.
    Mrs. Dingell. Dr. Donovan?
    Dr. Donovan. I am in line with Gus.
    Mrs. Dingell. Ms. Bickert?
    Ms. Bickert. I am not an economist, but we do think user 
consent is very important.
    Mrs. Dingell. Second question: Yes or no, do you believe 
that having 400 million pieces of personally identifiable 
information made public, including passport numbers, names, 
addresses, and payment information, is a market externality?
    Mr. Harris?
    Mr. Harris. Similarly, on sort of classic economic 
definition, I don't know if that would specifically qualify, 
but it is deeply alarming.
    Mr. Hurwitz. Same answer.
    Dr. Donovan. Agreed.
    Ms. Bickert. Same answer.
    Mrs. Dingell. So are you all agreeing with Mr. Harris?
    Mr. Hurwitz. Same answer as I gave previously. It is not 
the technical economic definition.
    Mrs. Dingell. I just wanted to see if we had gotten you to 
understand what a bother it is.
    Three, do you believe that having 148 million individuals' 
personally identifiable information, including credit card 
numbers, driver's license, and Social Security numbers, made 
public is a market externality?
    Mr. Harris?
    Mr. Harris. I can see it is sort of like an oil spill 
externality.
    Mrs. Dingell. Mr. Hurwitz?
    Mr. Hurwitz. The same answer.
    Mrs. Dingell. So you don't think it is a problem.
    Mr. Hurwitz. I don't--I don't not think it is a problem. I 
wouldn't characterize it as an externality and use it as a----
    Mrs. Dingell. Do you not think we have got to protect 
people from that?
    Mr. Hurwitz. No, that is not what I am saying. I have an 
economics background. I rely on a more technical definition of 
an externality.
    Mrs. Dingell. Dr. Donovan?
    Dr. Donovan. It is an incredibly important problem.
    Mrs. Dingell. Ms. Bickert?
    Ms. Bickert. Yes, I would echo Dr. Donovan.
    Mrs. Dingell. Do you believe that having the data of 87 
million users taken and used for nefarious and political 
purposes is a market externality?
    Mr. Harris?
    Mr. Harris. I think it is the same answer as before.
    Mr. Hurwitz. If I break into your house and steal your 
stuff and sell it on the black market, that is not an 
externality. However, it is a problem.
    Mrs. Dingell. Dr. Donovan?
    Dr. Donovan. Well, I wouldn't characterize it as a break-
in. It was facilitated by the features built into the platform, 
and it is a huge problem.
    Mrs. Dingell. Thank you.
    Ms. Bickert?
    Ms. Bickert. Again, we think that user control and consent 
is very important.
    Mrs. Dingell. Last question. I am out of time, so you are 
going to have to be fast.
    And finally, do you believe that simply asking whoever took 
it to please delete it is an appropriate response?
    Mr. Harris?
    Mr. Harris. It is very hard to enforce that. And once the 
data is out there, it is distributed everywhere. So we have to 
live in a world where now we assume that this is just out 
there.
    Mr. Hurwitz. You need to solve the problem on the front 
end.
    Mrs. Dingell. Dr. Donovan?
    Dr. Donovan. That never should have been allowed in the 
first place.
    Mrs. Dingell. Ms. Bickert?
    Ms. Bickert. Again, we think that it is very important to 
give people control over their data, and we are doing our best 
to make sure that we are doing that.
    Mrs. Dingell. So I am out of time. Thank you, Madam Chair.
    Ms. Blunt Rochester [presiding]. Thank you. The gentlewoman 
yields. And I recognize myself for 5 minutes.
    Thank you to the chairwoman in her absence, and thank you 
to the panelists.
    This is a vitally important conversation that we are 
having. What I have noticed is that technology is outpacing 
policy and the people. And so we are feeling the impacts in our 
mental health, we are feeling it in our economy, we are feeling 
it in our form of government. And so this is a very important 
conversation.
    And I would like to start with a few questions that are 
kind of off of the dark patterns and those issues but really do 
deal with the idea of deceptive and manipulative practice. And 
it is just a basic question, so yes or no, and it is really 
surrounding the platforms that we have and the ability for 
people with disabilities to use them.
    Are each of you, or any of you, familiar with the term 
universal design? And I will just ask Mr. Harris.
    Mr. Harris. Vaguely, yes.
    Ms. Blunt Rochester. Mr. Hurwitz?
    Mr. Hurwitz. Vaguely, yes.
    Dr. Donovan. Yes.
    Ms. Blunt Rochester. Yes.
    Ms. Bickert. Vaguely, yes.
    Ms. Blunt Rochester. Vaguely. OK. So there are a lot of 
vaguelies, and I don't have time to really talk about what 
universal design is. But I think, as we look at how people are 
treated in our society, universal design and looking at people 
with disabilities is one of the areas that I would like to 
follow up with each of you on.
    I would now like to turn my time to a discussion about dark 
patterns. And every single Member of Congress and every one of 
our constituents, virtually everyone, has been affected by this 
in some respect. Every day, whether it is giving up our 
location data, or manipulated into purchasing products that 
they don't need, or providing sensitive information that 
enables scams, many of us are targeted.
    And, while the failure to address dark patterns harms 
individuals, one of the areas that is of deeper concern to me 
is the challenge for us as a society as a whole. Cambridge 
Analytica, that scandal in and of itself was a great example 
for all of us of it wasn't just an individual that was harmed, 
it was our society, and we see some of the remnants of it to 
this day.
    And so I heard someone say to me yesterday that they hoped 
that this hearing was not just a hearing, but a real wakeup 
call, a wakeup call to our country. And so my first question is 
to Mr. Harris.
    Do you believe that oversight of dark patterns and the 
other deceptive and manipulative practices discussed here are 
well suited for industry self-regulation?
    Mr. Harris. No, absolutely not.
    Ms. Blunt Rochester. And I would like to follow up with Ms. 
Bickert.
    Does Facebook have a responsibility to develop user 
interfaces that are transparent and fair to its users?
    Ms. Bickert. We definitely want that. And, yes, I think we 
are working on new ways to be transparent all the time.
    Ms. Blunt Rochester. Does Section 230 of the Communications 
Decency Act provide immunities to Facebook over these issues?
    Ms. Bickert. Section 230 is an important part of my team 
being able to do what we do. So, yes, it gives us the ability 
to proactively look for abuse and remove it.
    Ms. Blunt Rochester. But does it provide immunities? You 
would say yes?
    Ms. Bickert. I am sorry, what is the specific--Section 230 
does provide us certain protections. The most important from my 
standpoint is the ability for us to go after abuse on our 
platform. But separately it is also an important mechanism for 
people who use the internet to be able to post to platforms 
like Facebook.
    Ms. Blunt Rochester. I guess one of my concerns here for 
asking that question is we are having a big conversation about 
the balance of freedom of speech, in addition to the ability 
for people to yell fire in a crowded place. And so I am going 
to turn back to Mr. Harris.
    How do you think that we in Congress can develop a more 
agile and responsive response to the concerning trends on the 
internet? You mentioned a digital update of Federal agencies. 
Can you talk a little bit about that as well?
    Mr. Harris. Just as you said, that the problem here is we 
have--this is E.O. Wilson--the problem of humanity is we have 
paleolithic emotions, medieval institutions, and accelerating. 
godlike technology. When your steering wheel goes about a light 
year behind your accelerating, godlike technology, the system 
crashes.
    So the whole point is, we have to give a digital update to 
some of the existing institutions--Health and Human Services, 
FCC, FTC, you can imagine every category of society--and saying 
where do we already have jurisdiction about each of these 
areas, and ask them to come up with a plan for what their 
digital update is going to be and put the tech companies in a 
direct relationship where every quarter there is an audit and 
there is a set of actions that are going to be taken to 
ameliorate these harms.
    That is the only way I can see scaling this, absent 
creating a whole new digital Federal agency, which will be way 
too late for these issues.
    Ms. Blunt Rochester. I know I am running out of time, but 
my other question really was going to be to Ms. Bickert on the 
role that you see of government. I think we are having a lot of 
conversations here about freedom of speech and also the role of 
government.
    And so as a followup, I would like to have a conversation 
with you about what you see as that role of government versus 
self-regulation and how we can make something happen here. The 
bigger concern is for us to make sure that we are looking at 
this both as an individual level, but also as a society.
    And I yield my time and recognize the gentlewoman from New 
York, Ms. Clarke.
    Ms. Clarke. Thank you very much, Madam Chair.
    And I thank our ranking member, I thank our panelists for 
their expert witness here today.
    Deepfakes currently pose a significant and an unprecedented 
threat. Now more than ever, we need to prepare for the 
possibility that foreign adversaries will use deepfakes to 
spread disinformation and interfere in our election, which is 
why I have successfully secured language in the NDAA requiring 
notification be given to Congress if Russia or China seek to do 
exactly this.
    But deepfakes have been and will be used to harm individual 
Americans. We have already seen instances of women's images 
being superimposed on fake pornographic videos. As these tools 
become more affordable and accessible, we can expect deepfakes 
to be used to influence financial markets, discredit 
dissidents, and even incite violence.
    That is why I have introduced the first House bill to 
address this threat, the DEEPFAKES Accountability Act, which 
requires creators to label deepfakes as altered content, 
updates our identity theft statutes for digital impersonation, 
and requires cooperation between the government and private 
sector to develop detection technologies. I am now working on a 
second bill specifically to address how online platforms deal 
with deepfake content.
    So, Dr. Donovan, cheap fakes. We have often talked about 
deepfakes, where the technology footprint of the content has 
changed. But can you talk a bit more about the national 
security implications of cheap fakes, such as the Pelosi video, 
where footage is simply altered instead of entirely fabricated?
    Dr. Donovan. One of the most effective political uses of a 
cheap fake is to draw attention and shift the entire media 
narrative towards a false claim. And so particularly what we 
saw last week with the Biden video was concerning because you 
have hundreds of newsrooms kick into gear to dispute something, 
a video, and platforms have allowed it to scale to a level 
where the public is curious and are looking for that content, 
and then are also coming into contact with other nefarious 
actors and networks.
    Ms. Clarke. What would you say can be done by government to 
counteract the threat?
    Dr. Donovan. There has to be--I think you are moving very 
much in the direction I would go to, where we need to have some 
labels, we need to understand the identity threat that it 
poses, and that there needs to be broader cooperation between 
governments.
    As well I think that the cost to journalism is very high, 
because all of the energy and resources that go into tracking, 
mapping, and getting public information out there, I think the 
platform companies can do a much better job of preventing that 
harm up front by looking at content when it does seem to go 
wildly out of scale with the usual activity of an account and 
to proactively look at things where, if you do see an uptick of 
500,000 views on something, maybe there needs to be proactive 
content moderation.
    Ms. Clarke. Very well.
    Ms. Bickert, Facebook is a founding member of the Deepfake 
Technology Challenge, but detection is only partially a 
technology issue. We also need to have a definition of what 
fake is and a policy for which kind of fake videos are actually 
acceptable.
    Last summer you informed Congress that Facebook is working 
on a precise definition for what constitutes a deepfake. Can 
you update us on those efforts, especially in light of your 
announcement yesterday? And specifically how do you intend to 
differentiate between legitimate deepfakes, such as those 
created by Hollywood for entertainment, and malicious ones?
    Ms. Bickert. Thank you for the question.
    The policy that we put out yesterday is designed to address 
the most sophisticated types of manipulated media, and this 
fits within the definition of what many academics would call 
deepfakes, so that we can remove it.
    Now, beyond that, we do think it is useful to work with 
others in industry and civil society and academia to actually 
have common definitions so we are all talking about the same 
thing. And those are conversations that we have been a part of 
in the past 6 months. We will continue to be a part of those. 
And we are hoping that, working together with industry and 
other stakeholders, we will be able to come up with 
comprehensive definitions.
    Ms. Clarke. Should the intent of the deepfake or rather its 
subject matter be the focus?
    Ms. Bickert. I am sorry. Could you repeat that?
    Ms. Clarke. Should the intent of the deepfake or the 
subject matter be the focus?
    Ms. Bickert. From our standpoint, it is often difficult to 
tell intent when we are talking about many different types of 
abuse, but also specifically with deepfakes for misinformation, 
and that is why if you look at our policy definition it doesn't 
focus on intent so much as what the effects would be on the 
viewer.
    Ms. Clarke. Thank you very much. I yield back.
    I thank you, Madam Chair, for allowing my participation 
today.
    Ms. Schakowsky [presiding]. That concludes the questioning.
    I have things I want to put into the record, and maybe the 
ranking member does as well. But I did want to make an ending 
comment, and I would welcome her to do the same if she wishes.
    So we had a discussion that took us to the grocery store, 
but we are now in a new world that we are discussing that is 
hugely bigger when we talk about Facebook. And as you say in 
your testimony, Facebook is a community of more than 2 billion 
people spanning countries, cultures, and languages across the 
globe.
    But I think that there is now such an incredible and 
justified distrust of how we are being protected. We know in 
the physical world we do have laws that apply and that 
expectations of consumers are that those will be somehow there 
to protect us. But in fact they aren't.
    We live, then, in the virtual world and the digital world 
in a place of self-regulation. And it seems to me that that has 
not satisfied expectations of consumers correctly. And we don't 
have institutions right now, even when they have the 
authorities, have the funding, have the expertise--I am 
thinking of the Federal Trade Commission, just as an example--
to do what it needs to do.
    But we don't have a regulatory framework at all that I 
think, hopefully in a bipartisan way, we can think about. And 
it may include things like just the kinds of audits that you 
were talking about, Mr. Harris, which would not necessarily 
create new regulatory laws, but we may need to.
    And to me, that is the big takeaway today. When you have 
communities that are bigger than any country in the entire 
world that are essentially making decisions for all of the rest 
of us, and we know that we have been victimized, that the 
Government of the United States of America does need to 
respond. That is my takeaway from this hearing.
    And I would appreciate hearing from the ranking member.
    Mrs. Rodgers. I thank the chair, and I thank everyone for 
being here. I think it is important that we all become more 
educated.
    I wanted to bring to everyone's attention that the FTC is 
holding a hearing on January 28 regarding voice cloning. I 
think that it is important that all of us are participating, 
becoming better educated, and helping make sure we are taking 
steps as we move forward.
    Clearly, this is a new era, and on one hand we can 
celebrate that America has led the world in innovation and 
technology and improving our lives in many ways. There is also 
this other side that we need to be looking at and making sure 
that we are taking the appropriate steps to keep people safe 
and secure.
    So we will continue this important discussion and continue 
to become better educated. Today's hearing was a great part of 
that. Thank you, Chair.
    Ms. Schakowsky. Thank you very much.
    I would like to insert into the record the--I seek 
unanimous consent to enter the following documents into the 
record: a letter from the SAG-AFTRA, a letter from R Street, a 
paper written by Jeffrey Westling of the R Street Institute, a 
report from the ATHAR Project on Facebook. And so I seek 
unanimous consent.
    Without objection, so ordered.
    [The information appears at the conclusion of the 
hearing.\1\]
---------------------------------------------------------------------------
    \1\ The Westling paper and the ATHAR report have been retained in 
committee files and also are available at https://docs.house.gov/
Committee/Calendar/ByEvent.aspx?EventID=110351.
---------------------------------------------------------------------------
    Ms. Schakowsky. So let me thank all of our witnesses today. 
We had good participation from Members despite the fact that 
there were other hearings going on.
    I remind Members that, pursuant to committee rules, they 
have 10 business days to submit additional questions for the 
record to be answered by the witnesses, and hopefully in a 
reasonably short time. We hope that there will be prompt 
answers.
    And at this time, the subcommittee is adjourned.
    [Whereupon, at 1:00 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Dr. Donovan did not answer submitted questions for the 
record by the time of publication.]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
